<html>
<title> - CYBER SECURITY: PRIVATE-SECTOR EFFORTS ADDRESSING CYBER THREATS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




    CYBER SECURITY: PRIVATE-SECTOR EFFORTS ADDRESSING CYBER THREATS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2001

                               __________

                           Serial No. 107-74

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-310                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

NATHAN DEAL, Georgia                 EDOLPHUS TOWNS, New York
  Vice Chairman                      DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               LOIS CAPPS, California
BARBARA CUBIN, Wyoming               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               CHRISTOPHER JOHN, Louisiana
JOHN B. SHADEGG, Arizona             JANE HARMAN, California
ED BRYANT, Tennessee                 HENRY A. WAXMAN, California
STEVE BUYER, Indiana                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Axelrod, C. Warren, Board of Managers, FS/ISAC LLC...........    17
    Casciano, John P., Senior Vice President and Group Manager, 
      Secure Business Solutions Group, Science Applications 
      International Corporation..................................    40
    Davidson, Mary Ann, Director, Security Product Management, 
      Oracle Corporation.........................................    30
    Doll, Mark W., National Director, Security & Technology 
      Solutions, Ernest & Young..................................     9
    Klaus, Christopher, founder, Internet Security Systems.......    35
    McCurdy, Dave, President, Electronic Industries Alliance, 
      Executive Director, Internet Security Alliance.............    13
    Morrow, David B., Managing Principal, Global Security and 
      Privacy Consulting Practice, EDS...........................    26
    Schmidt, Howard A., Chief Security Officer, Microsoft 
      Corporation................................................    49

                                 (iii)

  

 
    CYBER SECURITY: PRIVATE-SECTOR EFFORTS ADDRESSING CYBER THREATS

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Deal, Shimkus, 
Terry, DeGette, Doyle, Harman, and Markey.
    Also present: Representative McCarthy.
    Staff present: Ramsen Betfarhad, majority counsel; Jon 
Tripp, deputy communications director; Mike O'Rielly, majority 
professional staff; Brendan Williams, legislative clerk; and 
Bruce M. Gwinn, minority counsel.
    Mr. Stearns. Good afternoon. And welcome to the 
Subcommittee on Commerce, Trade, and Consumer Protection 
hearing on cyber security.
    You're welcome to sit down.
    I'm pleased that we are joined today by a group of 
distinguished witnesses and look forward to hearing their 
testimony. The witnesses today collectively represent the best 
minds on the issue of cyber security, and I'm confident they 
will help us better understand the issue and its increasing 
significance.
    In the aftermath of the tragic events of September 11 we as 
a Nation, it seems, have become obsessed with security, and 
that is understandable. So it is also understandable that our 
hearing today will also be colored to some extent by the events 
of September 11 and new worries over cyber terrorism. Still I 
do want to emphasize that the problems that gave rise to cyber 
security concerns predate September 11 and cyber terrorism 
worries.
    Most important, those problems have begun to increase in 
sheer numbers and magnitude in an alarming rate. Let me 
explain.
    In just over a year as a result of only three cyber 
attacks, the I Love You, Code Red viruses and February 2000 
denial of service attacks in excess of $10 billion was lost.
    The number of cyber attacks as reported by the Computer 
Emergency Response Team at Carnegie-Mellon University is 
expected to double this year from last year to some 40,000.
    Now, a survey of 538 computer security professionals both 
within the government and private sector released this past 
March and conducted by the Computer Security Institute with 
participation of the FBI's field office in San Francisco, found 
that 85 percent of the respondents said that they had detected 
computer security breaches between March 2000 and 2001. Some 58 
percent of those respondents had detected 10 or more incidents 
of vandalism, theft of information, financial fraud and denial 
of service attacks.
    Quite significantly, 64 percent of respondents had 
acknowledged financial losses due to cyber attacks or worse 
breaches of their information systems.
    Cyber attacks and breaches of our Nation's information 
systems are especially worrisome when we realize that most 
aspect of our daily lives from the mundane to the profane, are 
touched either directly or indirectly by various information 
systems storing, processing and exchanging information via the 
electronic medium, the most visible of which is the Internet.
    Just about everything we do involves the processing and 
exchanging of information electronically. Therefore, cyber 
threats to the Nation's information system, be they viruses, 
worms, denial of service attacks or something as yet not 
thought of must be taken very seriously.
    If there are attacks yielding substantial breaches of our 
Nation's information systems, not only will we face staggering 
financial losses, we will also face more instances of tragic 
loss of lives.
    As our information system infrastructure has become 
interoperatable, easy to access for sake of increasing 
efficiency and productivity, it has become more vulnerable to 
cyber attacks. The greater the degree of interconnection and 
interdependence between the various information systems, the 
higher the cost of disruption due to cyber attacks.
    The Internet has tremendously accelerated this move toward 
increased interconnectivity and ease of access to information 
systems. And as such, the Internet connection to an information 
system containing mission critical information, such as 
financial data and intellectual property, has become a frequent 
point of cyber attacks.
    The custodian of the Nation's information systems, the ones 
underpinning our economic welfare, is of course private 
industry. Companies large and small have historically made 
great strides in protecting their mission critical information 
operating systems. However, the cyber security challenges that 
they face have both increased in number and magnitude as the 
importance of information systems to our economic welfare has 
increased with the advent of the Internet.
    We'll hear today that private industry is rising to these 
new challenges, but there still is more work to be done. For 
example, even though the horrific events of September 11, 2001 
have put additional pressure on companies to reexamine their 
security procedures and practices, according to a recent poll 
of 150 chief information officers by CIO magazine, almost 40 
percent of America's larger companies still do not have cyber 
security experts on staff or under contract. Cyber security 
measures cannot be an afterthought when designing, operating 
and managing mission critical information systems.
    Since September 11, we have learned that terrorists do have 
the wherewithal to undertake the unexpected. Terrorists and 
their recruits also have grown up in the digital age and thus, 
most probably, possess the technical skills to undertake 
concerted and effective cyber attacks. And as the real and 
virtual worlds have become more closely intertwined, cyber 
terrorism can potentially engender greater pain and tragedy, 
and thus become more attractive to unscrupulous terrorists.
    I'll end by borrowing Ms. Davidson's most instructive 
words, ``The price of cyber security, as with liberty, is 
eternal vigilance,'' and as we all know, freedom is not free.
    With that, I'll turn to the ranking member of the 
committee, Ms. DeGette who is substituting for Mr. Towns.
    Ms. DeGette. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing.
    In this time of uncertainty in our economy and in our 
country, these issues also face our business community. And I 
would echo very much of what the chairman talked about in terms 
of the integrity of our computer systems and our data in a time 
of terrorism, and the important role that private industry has 
to play in preserving the integrity of those systems so that we 
can preserve the integrity of our economy.
    I would like to talk an issue not raised by the chairman, 
because I do concur with so many of his statements, and that's 
the issue of identity theft. This is an issue that we've talked 
about for many months in this subcommittee and which is even 
more essential today with the terrorists that we're facing.
    An adequate cyber security in our commercial information 
system will increase the likelihood of identity theft. With the 
dawn of the information age companies collect, store and 
transmit large amounts of consumer information over 
computerized networks. Consumers rely on the security of these 
networks to protect personal data like Social Security numbers, 
unlisted telephone numbers, addresses, maiden names and 
information about their information.
    As we have heard during previous hearings of this 
subcommittee, if this type of personal security is compromised, 
any of the information can be obtained and used to steal 
identities of unsuspecting Americans. Therefore, the security 
of commercial information networks concerns all consumers and 
is another aspect of the importance of cyber security.
    Unfortunately--well, fortunately in one way but 
unfortunately in others, after September 11 we had thought that 
many of the hijackers of the airplanes on that day were using 
stolen identities. The fortunate thing was that in large part 
turned out to not be true, but yet stolen identifies were still 
used by some of terrorists in the September 11 attacks. At 
least one example that we know of was using the stolen identity 
of a deceased New Jersey woman in order to evade capture. And 
heaven knows how much this could happen in the future, and how 
difficult that would make apprehension by law enforcement 
agencies of suspected terrorists.
    It is essential that both the private sector and government 
work to eliminate unauthorized access to personally 
identifiable information, which is the source of identity 
theft. Unauthorized access to the commercial information 
systems can be overcome with cooperation, and that's one reason 
I'm particularly looking forward to hearing the testimony of 
our witnesses here today. Because as I've thought all along, 
this is not something that the government can work out in 
isolation, nor is it a problem that we should expect private 
industry to attack on its own.
    Mr. Chairman, we need to continue to fight the war against 
cyber terrorism on all fronts, including identity theft. And I 
look forward to working with you and also the other members of 
the committee and hearing from our distinguished panelists on 
this issue.
    And I yield back the balance of my time.
    Mr. Stearns. Thank you, gentlelady.
    Mr. Shimkus from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing, and you probably had mentioned to the 
panel, I'm glad to see you all here.
    We have a lot on our plate today with our bioterrorism 
hearing downstairs, our conference has called an airport 
security briefing at 1:15 in AC5, and now this. So if we're 
running back and forth, let me apologize for myself and the 
rest of my colleagues.
    Obviously, e-commerce and security are a big issue, and 
even with September 11 and the past, we will see an 
expediential growth, probably, in the use of facilities on 
electronic transactions.
    I actually had a meeting yesterday morning with the Postal 
Service, and their projections are now outdated because of how 
people will rapidly move into their realm, which means if it's 
an easy target, terrorists will attack easy targets. And if 
it's disruption of our commerce and communication, and the 
like, that's another aspect.
    So you all have been dealing with it in one way or the 
other. We know that you verified your threats, your 
vulnerabilities, and we would be interested in hearing what 
you're doing to protect yourselves and your clients.
    I will end with saying I don't know of security because of 
Ms. DeGette's statements, I don't know if security is just a 
cost of doing business. I do believe that, darn right, there 
should be a value added aspect of having good control over your 
own data bases and in protecting security; that should be 
beneficial in some aspects depending upon your business. It 
probably should not be considered just a cost of doing 
business, but there's probably some very good value added 
aspects, and if that is properly promoted that people can take 
advantage of.
    With that, Mr. Chairman, I think it's going to be a great 
hearing. I appreciate the panel being here. And be patient, we 
will get to you. Thank you.
    Mr. Stearns. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman, for holding this 
important and timely hearing on cyber security.
    The tragic events of September 11 demonstrate the 
willingness and capability of America's enemies to utilize 
modern communications mediums like the Internet and email to 
plan, organize and facilitate their attacks. And since that day 
we in Congress have examined a variety of proposals to 
strengthen and modernize both our domestic and international 
responses to terror.
    Legislation is in the works to ensure the safety of 
imported food, improve the safety of our airports and enhance 
our enforcement and investigative capacities. I think it's only 
logical that Congress should address the possibility that 
future attacks could likely exploit vulnerabilities in our 
cyber security systems, both public and private.
    Just as cyber security needs of essential government 
agencies such as the CIA and the Pentagon must be designed to 
prevent unwanted access to classified information, like 
intelligence directives and troop movements, private 
corporations need to ensure that personal information like 
Social Security or credit card numbers are not stolen by 
hackers looking to create false identities. After all, many of 
the hijackers on September 11 used fraudulent identification to 
carry out their evil business.
    In what may be a glimpse of the future, it seems now that 
one Federal agency is taking a proactive approach toward cyber 
security. An article that appears in the current issue of 
Defense News highlights the Pentagon's efforts to fight back 
against hackers by creating an active defense network capable 
of tracking hacker attacks back to their origin while covertly 
monitoring the source of suspicious attacks. According to the 
article, the agency predicts over 40,000 attacks on military 
networks by year's end, a figure that's up from about 22,000 in 
the year 2000.
    Back on my hometown of Pittsburgh we're fortunate to have 
one of America's greatest authorities or cyber security, the 
Center for Emergency Response Team or CERT of the Software 
Engineering Institute of Carnegie-Mellon University. CERT at 
SEI is a federally funded research and development center whose 
primary goals are to ensure that appropriate technology and 
systems management practice are used to resist attacks on 
network systems and limit damage and ensure continuity of 
critical services in spite of successful attacks.
    The center is the first to respond to computer attacks, 
such as the recent Nimba and I Love You viruses. According to 
CERT statistics, nearly 22,000 incidents of security violations 
occurred last year with over 34,000 recorded already this year. 
Clearly incidents of cyber attacks are on the rise in both the 
public and private sectors.
    I want to commend CERT and the Electronics Industry's 
Alliance for taking the initiative to form the Internet 
Security Alliance, a collaborative partnership that brings 
together industry and software experts to better address the 
growing need for timely, informative responses to cyber 
terrorism.
    I look forward to hearing from Mr. Dave McCurdy, the 
President of EIA and the Executive Director of the Internet 
Security Alliance about the efforts of this new collaboration. 
Legislators to executive, to Internet security technicians; we 
could all stand to learn a great deal from the Internet 
Security Alliance.
    As my colleagues are aware, this subcommittee has devoted a 
significant amount of time and resources aimed at providing 
members with a plethora of information relevant to online 
security measures and protection of personal information. We 
have listened to a range of testimony from experts who, in some 
instances, highlighted the need for strong protections guarding 
the access to and the unwanted use of personally identifiable 
information.
    I hope that this committee will soon take action to bolster 
to e-commerce activities of both the public and private 
sectors.
    Mr. Chairman, I thank you.
    I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    The gentleman from Georgia, Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman. Thank you for assembling 
this very impressive panel today, and I look forward to hearing 
your testimony.
    Like Mr. Shimkus said, it is a busy time and we may have to 
apologize for people running in and out, but we do so in 
advance and I hope you will understand that.
    It's a pleasure to see our former colleague, Mr. McCurdy. 
Nice to see you again, Dave.
    Mr. Chairman, you know, I'm like a lot of people, I wish 
for a simpler time. When I read Future Shock many years ago, 
like many of you, we probably thought it was science fiction 
and would never come to be. Unfortunately, that rush of the 
information age has truly crashed down upon us.
    I think of one of my colleagues in the General Assembly of 
Georgia who said that he lived in a small town, and to 
illustrate it was, he said it didn't even need turn signals on 
your car because everybody knew where you were supposed to be 
going and if you made the wrong turn, your wife would know 
about it before you got home anyway. We don't live in a world 
like that anymore.
    Unfortunately our lives are very tangled and confused in 
terms of who has control over our lives and who has control 
over information that's pertinent to us. And the security of 
that information, of course, is what all of us are concerned 
about. And it is a multifaceted issue, and I'm sure today we 
don't have time to deal with all of the facets of it. 
Everything from the issue of personal identification security 
and protection that has been alluded to the issue of the 
availability of law enforcement agencies to have access to 
information for purposes of their investigations, information 
that in normal circumstances might wish to be secure and 
protected.
    Now all the way to the issue of illegal immigration in our 
country, with some 7 plus million, many of whom are working in 
our country and presumably have somebody's Social Security 
number who don't know and we don't have the knowledge of what 
the implications of all of that is going to finally be when we 
sort it all out.
    I thank you all for being here today, and I look forward to 
your testimony, and also to the questions.
    Thank you, Mr. Chairman.
    Mr. Stearns. Thank you.
    The gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. I thank the Chair very much for holding this 
very important hearing.
    Back in the 1960's the Federal Government went to AT&T and 
asked them if they would be willing to build a packet switch 
network for the United States. And AT&T said why would we do 
that, we already have a monopoly. We're not interested in the 
contract. And so, they then turned to IBM and asked them to 
build a national packet switch network, and IBM said why wold 
we do that? We have a monopoly. We're not interested. And so 
they turned to a company in Cambridge, BB&N and gave the 
contract to these very smart scientists at MIT to construct a 
packet switch network which while providing the role of being a 
scientific information sharing source of information, also had 
the additional advantage of providing a redundancy to the 
existing telecommunications network in the United States. The 
great fear was that there would be a preemptive attack upon the 
United States and they would bomb the AT&T national long lines 
that went right through the middle of the country, decapitating 
our national leadership.
    On September 11 the good news is that this brilliant 
invention of the scientists at BB&N did work. And even as 
Verizon or AT&T switches may have been effected, in fact the 
ability for packet switches to move information and reassemble 
it regardless of the course that was being taken at the point 
of destination was something that was really proof positive 
that the Federal Government in 1967, regardless of what the 
private sector might have thought about it, really did 
anticipate September 11.
    In addition, I'd just like to note, Mr. Chairman, that we 
as a committee and I think the Nation as well, has to divide 
the question. On the one hand we're all very concerned about 
identifying terrorists within our own country and we're willing 
to suspend some of the constitutional protections which we 
would otherwise ensure that everybody, even visitors to our 
country, were entitled to. And I think all of us, or most of 
us, at least are willing to suspend that. But we must divide 
the question between terrorist cells and corporate sellers in 
terms of the compromise of privacy information. You can't allow 
any change in attitude in our country to allow corporation 
America to begin to gain access to information within our 
country as though anything that happened on September 11 would 
justify it.
    So I look forward to this incredibly impressive panel of 
experts which you've brought here to us today, lead by our 
former very distinguished colleague, Mr. McCurdy. And I think 
it's going to be very helpful to us in understanding what 
policies should be adopted in the days and months ahead.
    Thank you.
    Mr. Stearns. I thank the gentleman.
    Ms. McCarthy, would you--are you prepared to----
    Ms. McCarthy. I'd like to hear from the panel, and I'll put 
my remarks in the record.
    Mr. Stearns. Okay. By unanimous consent, so ordered.
    And Ms. Harman, do you have an interest in an opening 
statement?
    Ms. Harman. Thank you, Mr. Chairman, no. I'd like to hear 
from the panel.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Let me begin by thanking the Subcommittee Chair, Mr. Stearns, for 
calling this hearing on cybersecurity and for assembling such a 
distinguished panel of witnesses. Let me also thank them, in advance, 
for their testimony.
    Recent events remind us how precious and essential security is--
something many of us previously had taken for granted. It is a basic 
component of our quality of life.
    Security also is an essential component of sound and successful 
commerce--particularly as it relates to the Internet and digital 
commerce. And I know that recent events have also increased scrutiny--
especially by the private sector--of this increasingly important slice 
of the security umbrella.
    The Internet is becoming a larger part of American life and a 
necessary instrument for American commerce. With more than 60% of 
Americans with access to the Internet and a great majority of American 
business interconnected, a certain level of Internet services are on 
the way to becoming ubiquitous.
    The success of Internet services and commerce depends directly on 
how security is handled by the private sector. For instance, how 
comfortable and confident consumers and businesses feel with how 
information is protected, is dependent on the level of security 
utilized by American business. Unlike national security issues, which 
are the responsibility of the Federal government, the structure of the 
Internet--primarily owned and run by the private companies--requires 
private sector innovation and leadership.
    We have seen the huge financial losses suffered by web viruses and 
worms. We have witnessed the losses by denial of service attacks. 
Successful cyber attacks can cost companies by disrupting service, 
exposing them to bad publicity, or manipulating or destroying sensitive 
company data.
    More importantly, successful attacks not only threaten the attacked 
company and its network but also the company's suppliers, partners, and 
relationship with its customers. It also effects the non-Internet-
driven portion of the company. In essence, attacks create a certain 
domino effect, which sends economic harm cascading through businesses 
and Amercans' lives.
    In my opinion, the vast majority of American companies are doing a 
great deal to improve and maintain security in their networks and to 
ensure the security of information and materials they have.
    Even so, there are certain security vulnerabilities in the nature 
of the Internet and within the networks owned and operated by 
individual companies. There are some weak points in the inherent 
architecture. Networks of large American companies will always be 
targets of criminal attacks, whether by small time hackers or 
sophisticated terrorists.
    However, nobody should take away from this hearing the notion that 
there is a perilous state in the way companies protect their networks 
and information. Their ability to create cutting-edge protections 
against ever-changing threats is simply amazing.
    While more work must be done, much work has already been 
accomplished, just not spoken about--and understandably so. Companies 
are leery about highlighting how secure their networks are for fear of 
inviting determined attackers.
    I hope that some of today's panelists can speak to the work that 
their companies are doing to improve the security of their and their 
clients' networks. I hope they can elaborate a bit on recognition of 
the relevant issues, assessment testing, deploying necessary resources, 
and taking corrective measures. Moreover, as security becomes more of a 
necessity rather than cost-drag on industry, we need to know whether 
there is a sufficient market developing for solutions and products to 
improve the Internet security of all companies.
    I am also hopeful that this hearing will shed light on what 
vulnerabilities exist today, what steps are being taken by the private 
sector to address these vulnerabilities, and what role, if any, the 
federal government--specifically the Congress--can play to promote 
increased awareness and action on these issues.

    Mr. Stearns. Okay. All right. We do have, as all the 
members have pointed out, a full panel and Mr. McCurdy is, of 
course, a former member. And as sitting members we have great 
deference and reverence for former members. It's a tandem race. 
We show deference to them hoping that they'll remember us. But 
he has the wisdom of both being a Member of Congress and now on 
the other side. So, we're anxious to hear from him, and we 
welcome him, personally.
    Mr. Doll, I think what we'll do is start from my left and 
just come across. If each of you would just, in your opening 
statement, just give us your name and title and then we'll just 
after your 5 minute, we'll just keep moving down the table.
    So I welcome all of you.

   STATEMENTS OF MARK W. DOLL, NATIONAL DIRECTOR, SECURITY & 
TECHNOLOGY SOLUTIONS, ERNEST & YOUNG; DAVE McCURDY, PRESIDENT, 
 ELECTRONIC INDUSTRIES ALLIANCE, EXECUTIVE DIRECTOR, INTERNET 
  SECURITY ALLIANCE; C. WARREN AXELROD, BOARD OF MANAGERS, FS/
ISAC LLC; DAVID B. MORROW, MANAGING PRINCIPAL, GLOBAL SECURITY 
   AND PRIVACY CONSULTING PRACTICE, EDS; MARY ANN DAVIDSON, 
  DIRECTOR, SECURITY PRODUCT MANAGEMENT, ORACLE CORPORATION; 
CHRISTOPHER KLAUS, FOUNDER, INTERNET SECURITY SYSTEMS; JOHN P. 
   CASCIANO, SENIOR VICE PRESIDENT AND GROUP MANAGER SECURE 
 BUSINESS SOLUTIONS GROUP, SCIENCE APPLICATIONS INTERNATIONAL 
  CORPORATION; AND HOWARD A. SCHMIDT, CHIEF SECURITY OFFICER, 
                     MICROSOFT CORPORATION

    Mr. Doll. Good afternoon, Mr. Chairman, and members of this 
committee. And thank you for this opportunity to testify before 
you today.
    I am Mark Doll, National Director of the Security & 
Technology Solutions for Ernst & Young with over 50 years 
experience working in cyber terrorism matters.
    Ernest & Young is a leading provider of accounting, 
assurance, and information technology services around the 
globe, with over 84,000 employees based in 130 countries.
    Today I'll discuss the need to assess risk and 
vulnerabilities of our critical IT infrastructure.
    Without being too alarmist, the focus on innovation and the 
lack of focus on security makes our critical infrastructure 
vulnerable to attack from criminals, hackers, disgruntled 
employees and, yes, terrorists. Whether it's via cyber attack, 
a worm, a virus; any of these things could wreak havoc 
throughout our interwoven IT reliance chain putting at risk our 
national security, the way corporate American conducts business 
and the way civilians and citizens conduct their lives.
    So what should we do? Effectively securing our corporate 
and critical infrastructure systems is no small chore, but we 
can't be paralyzed by the task at hand. We don't believe that 
there's any choice but to confront it. Already, however, 
positive steps are being taken, but more could be done to 
encourage companies, individuals, the government to address 
these vulnerabilities and tackle these hard issues.
    We need to first address the issues of authentication and 
authorization, interoperatability, recovery and validation. If 
we can focus on these concepts, we can take a positive step 
forward to improving the overall national security. What do I 
mean by these terms and what do these terms reveal?
    First, the term authentication refers to the ability to 
determine who is using a computer system. And authorization 
refers to what an authenticated individual is allowed to use or 
see on a system. Without an appropriate system authentication 
and authorization, we'll be unable to track and limit 
unauthorized individuals that might gain access to systems for 
a personal gain or cyber terrorism.
    Second, we need to simplify interoperatability. 
Interoperatability refers to the ability of systems to function 
seamlessly, regardless of operating system, application or 
hardware. Market innovation and competition has driven economic 
growth and you have tremendous increase in productivity. The 
same innovation and competition has, understandably, resulted 
in many proprietary protocols and has created an environment, a 
very complicated security design which has, in turn, led to 
security inefficiencies and vulnerabilities. As a result, it is 
costly and difficult for many organizations to implement truly 
effective security solutions. Today we must work together in a 
public/private partnership to simplify these protocols.
    Third, recovery. The term refers to the ability to correct 
system failures and catastrophes in a timely manner. Today, 
most companies are on their own when it comes to implement 
fail-safe systems and contingency plans. Many companies lack 
the necessary rigor and scale of recovery systems to respond to 
a national attack or cohesive cyber terrorism threat. Any 
consideration of cyber security must, therefore, take into 
account a national recovery system.
    Finally, validation. Securing our critical infrastructure 
should not be perceived as a problem that can be fixed simply 
by purchasing software or installing a firewall. Once a 
security application or process is put in place, it must be 
regularly monitored and effectively validated. Unfortunately, 
there are no common set of standards for validating the 
security of information systems. Instead, different countries, 
different individual industries and service providers employ 
different standards for assessing vulnerabilities and 
effectiveness of security solutions.
    This hampers efforts to conduct comprehensive risk 
assessments of network safeguards and controls across 
industries and applications. Service companies like Ernst & 
Young must then determine how to make these complicated set of 
standards work within a complex corporate environment while 
allowing innovation and growth. Any long-term discussion of IT 
security should, therefore, consider the need to harmonize 
these standard for validating effectiveness.
    In conclusion, critical IT infrastructure security raises 
difficult issues. Today's hearing is important and is welcome. 
The President in his Executive Order establishing a Critical 
Infrastructure Protection Board and the National Infrastructure 
Advisory Council hold promise. We need to work together in a 
public/private partnership to answer difficult questions and 
find effective solutions.
    Again, I appreciate the opportunity to outline what we 
believe will be some of the key issues of this security issue. 
And I'll be happy to answer questions.
    [The prepared statement of Mark W. Doll follows:]

   Prepared Statement of Mark W. Doll, National Director, Security & 
                  Technology Solutions, Ernst & Young

                              INTRODUCTION

    Good morning Mr. Chairman, and thank you for the opportunity to 
appear before your subcommittee on the topic of security and private 
sector efforts to address cyber threats. I am Mark Doll, partner and 
National Director of the Security & Technology Solutions Practice for 
Ernst & Young LLP. Ernst & Young is a leader in providing accounting, 
assurance, and information technology services around the globe, with 
84,000 employees based in 130 countries.
    While the Internet revolution has been occurring, Ernst & Young has 
been adapting to offer our clients a variety of assurance services 
aimed at securing their vital information and computer networks. I 
bring fifteen year's of experience working on IT systems 
implementations and corporate IT management. Today, my clients include 
many of the Fortune 500 and new and emerging companies. Of our 84,000 
employees, over 1200 work specifically on security and IT risk matters, 
many of whom come to Ernst & Young from the United States military and 
intelligence communities. As a result of providing our services to 
numerous companies, Ernst & Young has a unique perspective on efforts 
to secure our country's critical IT infrastructure.
    Today I will suggest to you that recent events have brought to the 
forefront long-standing security risks and vulnerabilities throughout 
our nation's critical Information Technology (IT) infrastructure. In 
light of this, our nation now needs to work quickly and thoroughly--in 
public-private partnership--to assess these risks and vulnerabilities 
and implement effective security policies, not only to address today's 
problems, but also to prepare for tomorrow's unforeseen challenges.
Security Has Not Kept Pace With Infrastructure Growth and 

        Interdependency
    Corporate success has historically depended on the ability of 
management to control strategic business functions--product quality, 
management of physical plants, sales, and customer support--to stay 
ahead of competition. Today, technology has changed the traditional 
business environment, and is being used to increase productivity and 
enable the creation of non-traditional business relationships. 
Competitors are becoming partners, customers can now fulfill their own 
orders directly from supplier's inventories, and all organizations rely 
on telecommunications and information systems to manage the day-to-day 
operations of their businesses.
    Yet, as corporate America spent the last decade scrambling to react 
to and grow at the same pace as its competitors, it gave little regard 
to the ramifications of that growth. Internet technologies and new 
business processes created new markets, relationships, and 
unprecedented access to information systems, but it also created new 
risks to the security of those networks. Productivity and IT systems 
grew rapidly; but the security and controls around those systems did 
not develop at the same pace.
    This failure on the part of individual organizations to properly 
maintain the security of their IT systems could have a potentially 
disastrous ripple effect on our nation's collective security. Today, 
every business in America, every citizen who accesses the Internet, 
creates a portal into our vast interconnected system, creating not only 
a window through which information is gleaned, but also a potential 
door through which an attack on the whole system can be launched. 
Public and private sector organizations rely on many of the same IT 
systems to maintain productivity. Consumers and businesses today rely 
not only on their own ability to conduct transactions, but also on the 
reliability and availability of applications and infrastructure that 
are managed by others, including their customers, business partners, 
government, and other companies with whom they have no ``traditional'' 
business relationship. This has created a highly interdependent ``IT 
reliance chain'' of systems and businesses.

What Is At Risk?
    Without being too alarmist, this failure to build security into our 
systems makes our critical infrastructure vulnerable to cyber attacks 
not only from terrorists, but also from criminals, hackers, and 
disgruntled employees. Such individuals often search for the weakest 
link within a system, sneaking in through a loophole in or between 
software or hardware systems. Once inside the cyber-perimeter of an IT 
system, a hacker is then free to disguise him or herself as a valid 
user, stealing confidential information or creating new vulnerabilities 
for others to exploit. Whether it is via a cyber attack, a worm, or a 
deliberately launched virus, a concerted effort could wreak havoc 
throughout the ``IT reliance chain,'' putting at risk our nation's 
security, the way corporate America conducts business, and the way 
citizens live their lives.
    Our nation depends on interlinked information systems to run our 
telecommunications, power, transportation, financial, and national 
security functions. Business transactions can only take place if the 
applications and IT systems on which they rely (i.e. software solutions 
that control manufacturing) are functioning appropriately. But no 
business is an island of itself. If our nation's critical 
infrastructure is unavailable, individual businesses will be unable to 
operate. Similar to a house of cards, if just one component of this 
chain were to come under attack, the whole network could be affected 
or, in the worst case scenario, fail.
    For individuals, even the most mundane tasks in life are dependent 
on the proper functioning of the reliance chain. We have become reliant 
on computer-controlled systems for banking, telecommunications, power, 
and also the vital systems that maintain our personal identities, and 
medical records. An attack on these systems would dramatically affect 
the American way of life we take for granted, putting at risk our 
ability to communicate with family and friends, access money, visit a 
hospital, or even light our homes. We are all highly dependent upon the 
near 100% availability of our country's critical infrastructure 
components.

What Needs To Be Done?
    The security systems surrounding our critical infrastructure, 
specifically the information and communications networks, electrical 
power systems, gas and oil transportation and storage, banking and 
finance systems, transportation systems, water supply systems, 
emergency services and government services, must be properly managed.
    As you can imagine, effectively securing these systems will be a 
task of unprecedented proportions. But we must not let the size of the 
problem paralyze us. Already, hardware and software companies are 
institutionalizing efforts to proactively post known vulnerabilities 
and provide patches to their customers. Leading companies are moving 
quickly to assess vulnerabilities in their operational infrastructures. 
But we must do more to encourage companies and individuals alike to fix 
current systems vulnerabilities and tackle head-on the hard issues--
such as authentication, authorization, interoperability, recovery, and 
validation--required for critical infrastructure security.
    These are technical terms used by those of us in IT security 
industry to describe what are actually easy-to-understand concepts. 
Just as ``notice,'' ``choice,'' ``access,'' and ``security'' needed to 
be understood before policy makers could tackle data collection issues, 
``authentication,'' ``interoperability,'' ``recovery,'' and 
``validation'' need to be understood and debated if we are to move 
forward on a national cyber security program.
    1. Authentication & Authorization--First, ``authentication.'' The 
term refers to the ability to determine who is using computer systems, 
how to make sure that individuals are actually who they say they are. 
``Authorization'' is simply what an individual is allowed to use or see 
on a system. Without an appropriate system for authentication and 
authorization, we will be unable to track and limit unauthorized 
individuals that might gain access to systems for personal gain or 
cyber terrorism.
    2. Interoperability--The second issue we will need to tackle if we 
are to ensure security is ``interoperability.'' Interoperability refers 
to the ability of systems to function seamlessly regardless of 
operating systems, applications, or hardware. We have today countless 
numbers of different protocols for operating systems, applications, and 
hardware. Each vendor has a proprietary interest in their protocols, 
including the organizations at the witness table with me today. This 
has created a dysfunctional environment of complicated interoperability 
between competing systems, applications, and hardware. This limited 
interoperability makes it costly and difficult for organizations to 
implement truly effective security solutions.
    3. Recovery--Third, ``recovery.'' This term refers to the ability 
to correct systems failures and catastrophes in a timely manner, 
wherever they occur. Today, we rely on companies to unilaterally act to 
implement fail-safe systems and contingency plans. Although most have 
systems to restore a site, network or system failure, it is our 
experience that many companies lack the necessary rigor and scale of 
recovery systems to respond to a national attack or cohesive cyber 
terrorism threat. Any national consideration of IT security must take 
into account the necessity for a national program requiring and 
architecting a national recovery system. Admittedly, this will be a 
costly undertaking on the part of both corporate America and the 
government.
    4. Validation--Finally, ``validation.'' Securing our critical 
infrastructure should not be perceived as a problem that can be fixed 
simply by purchasing the latest and greatest software or installing a 
firewall. Once a security application or process is put in place it 
must be regularly monitored and its effectiveness validated. This 
applies to all levels of security, including authentication, 
interoperability, and recovery.
    Unfortunately, there is no common set of standards for validating 
the security of computer and information systems. Instead, different 
countries, individual industries, application vendors, and hardware 
providers employ different standards for assessing vulnerabilities and 
the effectiveness of security solutions. This hampers efforts to 
conduct comprehensive risk assessments of network safeguards and 
controls across industries and applications. Services companies like 
Ernst & Young must then determine how to make all of these competing 
standards work within a complex corporate environment while allowing 
for innovation and growth. Any long-term discussion of IT security 
should, therefore, consider the need for harmonizing standards for 
validating effectiveness.
    Validation is, in my mind, the most crucial issue we need to 
tackle, for without it, we will not accomplish systemic change. Only by 
regularly assessing the effectiveness of controls around complex issues 
like authentication, interoperability, and recovery will we ensure that 
any quick fixes are working as intended.
Public Private Partnership Is Necessary
    Clearly, critical IT infrastructure security raises difficult 
issues. Today's hearing is a step in the right direction. We need to 
work together, in a public-private partnership, to answer these 
difficult questions and deliberate on effective solutions.
    The Administration has issued a call to action to the private 
sector and government, through the President's October 16th Executive 
Order creating the Critical Infrastructure Protection Board (the 
``Board''), to work together to develop standards and best practices 
necessary to secure information systems for critical infrastructure. 
Importantly, the Executive Order requires the Board to work with 
members of the private sector, including the audit community to, among 
other things, ``propose and develop ways to encourage private industry 
to perform periodic risk assessments of critical information and 
telecommunications systems.'' We look forward to working with the 
Administration and Congress on this important initiative.

                               CONCLUSION

    In conclusion, the events of September 11, 2001, focused our 
country's attention on national security issues. It would be a mistake 
to focus solely on our country's outer security perimeter and overlook 
the security of our domestic IT infrastructure. We must work together 
to identify, prioritize and fix known vulnerabilities, as well as 
identify best practices to ensure the long-term safety and viability of 
the critical infrastructure on which our economy, citizens, and 
government rely.
    I appreciate the opportunity to be here this afternoon, and am 
happy to answer any questions.

    Mr. Stearns. I thank the gentleman.
    Mr. McCurdy?

                    STATEMENT OF DAVE McCURDY

    Mr. McCurdy. Thank you, Mr. Chair. Again, thank you for the 
opportunity to be back on this floor. I lived on this floor for 
quite a whole, just around the corner. It's good to see my 
former colleagues.
    With your permission, I'd like my statement to be admitted 
in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. McCurdy. And I'd like to just summarize, because having 
been on that side I know how important it is to get to the 
bottom line.
    There are a number of key points that I'd like to make, and 
I think this distinguished panel's going to raise a number of 
very good questions.
    Since the chairman alluded to it, I thought I would just 
give you one graphic. You cited the statistics from the CERT, 
as did Mr. Doyle. The progression on the security threats, the 
incidents, each one of these reports is an incident. I Love You 
was counted as one, the Malissa virus is counted as one. Last 
year over 22,000 this year at the progression it's currently 
on, will be over 40,000 separate incidents reported by the 
CERT.
    The important thing with that is the fact that the 
sophistication of those incidents is also increasing, but the 
knowledge necessary to perpetrate those attacks and bring back 
those incidents is actually declining. You no longer have to be 
a computer genius or, you know, some kind of geek to be able to 
go in and write software to get into these systems.
    A lot of this technology today and the knowledge is on the 
web. People can collaborate, and you see from a progression 
those with password guessing now to stealth advanced scanning 
techniques, automated probes and scans, worms, virus. So this 
in itself is a disturbing trend.
    And I'm going to save the last chart and, perhaps, take it 
up with a question, and that's the role of government versus 
the private sector.
    I think the threat is real. I think you know that. Many of 
us has been dealing with this long before September 11. Ms. 
Harman, knows. She actually sits on the three committees that I 
sat on; Intelligence, Science and Armed Services, and 
understands. It's not just a Nation, State, State actor 
environment. It's a number of individuals and organized crime 
and other efforts are out there to increase the risk.
    There is no such thing, and maybe some of my colleagues 
might differ, but I don't believe there's such a thing as 
Internet security or perfect security. If you want perfect 
security, you can be disconnected from the Internet. You could 
be totally isolated. But that defeats the purpose of the 
Internet.
    So if you want to be connected, then you're talking about 
risk management. And there a number of tools and efforts that 
need to be involved to provide that.
    The private sector can do a lot, not just in developing the 
tools and mechanisms, but improving the standards and best 
practices, which are management. And Mr. Doll mentioned that, 
but the important thing there is that this is not a U.S. 
centric technology. Mr. Markey gave us the Massachusetts' 
history of packet switching, but this is not a U.S. centric 
problem. This a borderless technology. It is global in nature, 
and therefore the risks are global. And it's important that we 
work on an international basis to provide solutions and reduce 
this risk.
    And the other point that I would make is that, you know, we 
witness it on a regular basis. Our country, maybe democracies 
are this way, but we're great at reacting. You know, after 
September 11 we had incredible forensic evidence and we were 
able to track these things; the terrorists and their movements 
and provide a great history. But we're not good in the 
proactive sense. And I think what we have to do in working with 
government is develop much more emphasis on developing those 
practices and standards that prevent and deter, and hopefully 
preempt some of these attacks. And I believe that the private 
sector can do that.
    The last chart that I was going to mention is one of your 
charts, not this committee's, but actually the government's. 
This is actually produced by the CHOW in the Department of 
Commerce, and it just shows you some of the organization. You 
saw the other day when Tom Ridge, our former colleague, was 
sworn in they showed the jurisdictional chart of the 41 
agencies that he was involved in. Well, this is for Critical 
Infrastructure Protection and this chart, too, can kind of 
drive you crazy.
    The public/private partnerships in this are down here in 
the corner, down here. But I would submit that it's the public/
private partnerships in the private sector that's going to do 
the most to provide the real protection. The government role is 
simple: Should take steps and encourage efforts to increase the 
IT investment, work with CIOs and give them resources to 
improve the security of the systems of the Federal Government, 
but then work with the private sector to help establish these 
best practices and standards and help the industry to see the 
benefits of further responsibility and accountability at the 
board level to ensure that there's auditable standards and 
practices are in place.
    And last, Mr. Doyle mentioned Carnegie-Mellon. We are 
pleased with the establishment of the Internet Security 
Alliance joint venture with 2300 member companies of EIA and 
Carnegie-Mellon. It's more than just an FFRDC. In order to 
expand its reach, to leverage the incredible talent and 
resources, they need to build their private side of the house 
in a nonprofit way, which is what ISA's about, in order to get 
that information and that trusted network of over 40,000 people 
around the globe who provide over 99 percent of those incident 
reports. Those aren't generated by the government, those are 
private citizens around the world that submit those incident 
reports so that we can gain from that knowledge.
    And with that, I appreciate again the opportunity and look 
forward to our questions.
    [The prepared statement of Dave McCurdy follows:]

 Prepared Statement of Dave McCurdy, President, Electronic Industries 
        Alliance, Executive Director, Internet Security Alliance

    Chairman Stearns, Ranking Member Towns, and members of the 
Commerce, Trade and Consumer Protection Subcommittee: I appreciate the 
opportunity to testify today on behalf of the Internet Security 
Alliance. I am deeply thankful to Congressmen Stearns and Towns for 
holding this informative hearing on the private sector's efforts 
addressing cyber threats.
    Since September 11th, the business community has become more 
security conscious than ever before. There is real alarm among 
companies concerning not only physical security but also cyber 
security, and with good reason. According to the CERT/CC at Carnegie 
Mellon's Software Engineering Institute the number of attacks on the 
Internet has increased at an exponential rate. The CERT/CC handled over 
20,000 incidents in 2000 and are now estimating that they will now 
handle over 40,000 incidents in 2001. Each one of those ``incidents'' 
could ultimately bloom into Code Red or Nimda attack within hours of 
its detection. The threat is critical. Corporations and the government 
find themselves on the front lines defending the critical functions of 
the national infrastructure, as well as the assets of American 
companies.
    In addition, attacks are becoming more destructive, widespread and 
more difficult to contain. Consider the following information on costs 
of cyberattacks that businesses have faced recently.
The Cost of Cyberattacks
<bullet> SirCam: 2.3 million computers affected
    <bullet> Clean-up: $460 million
    <bullet> Lost productivity: $757 million
<bullet> Code Red: 1 million computers affected
    <bullet> Clean-up: $1.1 billion
    <bullet> Lost productivity: $1.5 billion
<bullet> Love Bug: 50 variants, 40 million computers affected
    <bullet> $8.7 billion for clean-up and lost productivity
<bullet> Nimda
    <bullet> Cost still to be determined

    In April of 2001, Carnegie Mellon University and the Electronics 
Industries Alliance formed the non-profit Internet Security Alliance to 
advance the efforts of the private sector in the information security 
debate. You may know that the majority of the Internet, over 80%, is 
owned and operated by the private sector. Private sector leadership is 
essential to determining an overall strategy to increase the strength 
and survivability of the Internet. The Internet Security Alliance seeks 
to help in this endeavor
    As the Internet continues to ingrain itself as a linchpin of 
American business and with concern growing that the cyber environment 
is ripe for attack, industry now more than ever needs an independent, 
non-partisan organization that offers comprehensive, universal threat 
sharing and assessment, and collaborative solution development. We need 
to create a new paradigm for global information sharing to help 
companies that rely on the Internet deal with the growing threats to 
their continued success and growth.
    Furthermore, since 80 percent of technical vulnerabilities are 
common to all organizations, and misperceptions about robust security 
can lead even the most attentive security engineers to expose their 
systems to attack. Industry needs to develop universally recognized 
information security practices capable of being pushed down through 
supply chains so evolving Internet threats can be effectively mitigated 
and deterred. You are only as secure as your weakest link.
    The Internet Security Alliance is one of the few organizations 
working on behalf of industry to address these issues. With its 
international and multi-industry segment member representation and 
access to a network of more that 40,000 loyal systems administrators 
and security engineers who diligently report new threats and 
vulnerabilities, the Internet Security Alliance is redefining the 
concept of information sharing. On a near real-time, systematic basis, 
the alliance provides companies large and small with access to trusted 
and reliable information, solutions and decision support tools to help 
mitigate the vulnerabilities and emerging threats we are here to 
discuss today.
    Driven by some of the brightest security minds in industry and 
academia, the alliance has also begun work on a robust set of best 
practices that will serve as guiding principles for companies and their 
supply chains as they evolve their security policies and procedures. 
Our efforts enable companies to allocate their limited resources on 
other projects, such as deploying intrusion detection systems, 
firewalls, and raising security awareness within their company.
    Using the collective experience the Internet Security Alliance and 
its members, we can effectively promote sound information security 
practices, policies and technologies that enhance the security of the 
Internet and global information systems.

Why is the private sector involvement so important?
    The Internet Security Alliance applauds the efforts of the current 
Administration in its dedication to raising the awareness of cyber-
threats and cyber-terrorism. It's leadership on the recent cyber-
attacks on Code Red and Nimda were invaluable to testing the true value 
of both private and public partnerships. On the government side, 
officials tend to view private sector participation as well as the 
agency involvement in terms of sectors or ``stovepipes'' (see attached 
chart for the government organization chart for cyber-security), 
therefore creating barriers to true information sharing. The private 
sector is critical of this approach and is looking for more inclusive 
participation from all sectors. In order to maximize the effectiveness 
of taking on the cyber-security issue, collaborations and 
communications should be cross-sector and horizontal to all companies 
and government entities (where appropriate). We are all facing a common 
threat with respect to cyber-terrorism and vulnerabilities and will 
need to work together in order to protect our most critical assets.

International problem vs. U.S. centric problem: Cyber-Security
    The Internet knows no boundaries and is accessible from most parts 
of the world. As the Internet continues to be a tool that promotes the 
openness of ours and many other societies, it brings along vast risks 
and vulnerabilities. The Internet operates with no bias or cultural 
differences--it provides information and interaction. Since the concept 
of the Internet was based on the issue of trust, we can see the 
probability of its being compromised fairly easily.
    With that in mind, we would be foolhardy to not communicate with 
other nations on their experiences and potential remedies for cyber-
attacks that have happened on their networks. Not taking into account 
the expertise of foreign security experts would put the U.S. effort at 
a severe disadvantage. In addition, if the U.S. is not inclusive of 
other countries in this global problem, we stand to weaken our resolve 
to protecting ourselves by operating with limited knowledge of 
potential threats.

Proactive Measures vs. Reactive Response
    Finding solutions to cyber-security vulnerabilities and attacks has 
been historically reactive. Attacks happen, analyses made and a patch 
would be provided, if possible. We cannot continue to solve individual 
attacks on a case-by-case basis, while not addressing the larger 
problem. A better approach is to implement practices and policies that 
improve the protection of our networks by thwarting a higher percentage 
of attacks. In other words . . . becoming more proactive in our 
approach to cyber-security. By promoting practices currently in place 
for more security-focused companies and tailoring them for other 
sectors, additional protection could be provided. Many companies, 
especially medium-sized and smaller firms are vulnerable and looking 
for assistance in determining what security practices can help them 
better protect their systems.

Private and Public Partnerships
    The security and survivability of the Internet depends on the 
cooperation between the private and public sectors. Congress should 
promote interaction between government and the private sector and 
should also address issues such as exemption from FOIA and anti-trust 
barriers. In addition, Congress can set a great example for the private 
sector by increasing the security of all government systems, which 
historically have been out-dated and have not met minimal standards for 
security.
    The Internet Security Alliance is able to act as a bridge between 
the private sector and public sector by promoting best practices and 
appropriate data sharing mechanisms. The Internet Security Alliance is 
also involved in the following activities:

<bullet> Providing thought leadership on information security issues
<bullet> Representing industry's interest on information security 
        issues before legislators and regulators
<bullet> Creating mechanisms that cause rapid development and 
        implementation of information security practices, policies and 
        technologies
<bullet> Identifying and standardizing best practices in Internet 
        security and network survivability
<bullet> Creating a collaborative environment to develop and implement 
        information security solutions
<bullet> Promoting universal sharing of information and intelligence on 
        emerging threats/vulnerabilities/ countermeasures
<bullet> Information Sharing
    --Providing vulnerability catalog, threat alerts and analysis, 
            executive communications, call center, trend briefings, 
            economic impact analysis
    --Shaping and influence practices and resources at CERT/CC to meet 
            the needs of industry
<bullet> Best Practices/Standards
    --Establishing common benchmarks
    --Evaluating relevance of existing standards, define gaps and agree 
            on relevant and uniform criteria for standards moving 
            forward
    --Developing a Software Seal of Approval
<bullet> Policy Development
    --Providing decisive influence on the public policy issues whether 
            nationally or internationally
    --Targeting cybercrime and terrorism, privacy, information sharing, 
            corporate responsibility and leadership on information 
            security issues
<bullet> Security Tools
    --Sector-tailored versions of OCTAVE<SUP>'</SUP>
    --Sharing of R&D expertise of Alliance members
    To summarize, only by combining the strengths of both the private 
sector and public sector on issues such as early warning detection and 
information dispersal, promotion of best practices, agreement over 
sound information security policies will we be able to turn the tide on 
the cyber-security threat facing our nation.
    The Internet Security Alliance is poised to represent and promote 
the needs and views of the private sector on cyber-security. We thank 
the committee for its interest and for allowing us to participate in 
this necessary and timely hearing.

    Mr. Stearns. I thank my colleague.
    Mr. Axelrod?

                 STATEMENT OF C. WARREN AXELROD

    Mr. Axelrod. Thank you, Chairman Stearns, and members of 
your subcommittee for the opportunity to address you today on 
the very timely questions of what the private sector is doing 
to protect itself against cyber attacks, what it should be 
doing and how government might help.
    I would also ask for my written statement to be included in 
the record.
    My name is Warren Axelrod, I'm a Director responsible for 
global information security with the Pershing Division of 
Donaldson, Lufkin and Jenrette Securities Corporation, which is 
a Credit Suisse First Boston company.
    I'm also on the board of managers of the Financial Services 
Information Sharing and Analysis Center for the FS/ISAC.
    Today I will share with you my thoughts and suggestions on 
cyber security as someone who is an information security 
professional and a practitioner with more than a quarter of a 
century's experience as an information technology manager in 
the financial services industry.
    It's well known that with the relatively recent and rapid 
adoption of the commercial Internet, government and business 
have become increasingly dependent on a critical infrastructure 
over which they have little or no control. Largely due to this 
lack of control, we have see a proliferation of damaging 
computer viruses, worms, denial-of-service attacks and network 
and system breaches. With such an accelerating use of the 
Internet, the impact on commerce of unintentional network and 
deliberate acts of terrorism and compromise is greater each 
day.
    While thousands of new viruses and worms are created each 
month, relatively few cause significant damage. However, 
millions of scans of the Internet run each day by those seeking 
out weaknesses, only a very small percentage actually result in 
compromises. However, since the number of attempted attacks and 
the population of potential victims are both so enormous, even 
a very small rate of success has produced estimated damage in 
the billions of dollars per year.
    Since at this time deterrence is not sufficiently 
effectively and the pressure is on to expand services over the 
Internet, we are left with preventative measures as our best 
hope for reducing potential damage from cyber attacks. The 
greatest counterforce in this battle is, in my opinion, 
information sharing. Knowledge of new threats, newly discovered 
weaknesses and actual incidents gives organizations the 
opportunity to prepare for impending attacks or prevent 
exploitation by closing off known vulnerabilities. This is 
where the FS/ISAC comes in.
    The FS/ISAC is an industry funded product of Presidential 
decision directive 63 on critical infrastructure protection. 
PDD 63 required government agencies to partner with the sectors 
that make up critical infrastructure. The PDD additionally 
suggested that all critical sectors from ISAC to collect and 
analyze threat vulnerability and incident data.
    The U.S. Department of the Treasury is the partner of the 
banking and finance sector, and has been extremely supportive 
of the FS/ISAC.
    A key feature of the FS/ISAC is it allows members to submit 
information anonymously while insuring that submittals are from 
an authentic source.
    More recently, the banking and finance sector has ramped up 
several initiatives, including a crises management committee 
initiated by the Banking Industry Technology Secretariat and 
the Business Continuity Committee established by the Securities 
Industry Association.
    While I believe that the banking and finance sector has 
reason to be proud of initiatives that it has already put in 
place, there remains a considerable amount still to be done 
before we can feel comfortable with our state of preparedness.
    There are many ways in which Congress can help promote 
programs and processes to improve our defenses against cyber 
attacks and our ability to handle them. The willingness of 
industry members to share information, particularly about cyber 
incidents with other members of the ISAC would be much greater 
were there not the fear of infringing anti-trust laws.
    The ability of private industry to share security 
information with government depends very much on obtaining an 
exemption from the Freedom of Information Act, which would 
eliminate concern that damaging information would become 
available to competitors and potential attackers.
    Both of these items are central to the Critical 
Infrastructure Information Security Act of 2001 proposed by 
Senators Bennett and Kyl for which there has not yet been any 
inclusion in the legislative calendar. The proposal in the Act 
are key if we are to encourage a much broader sharing of 
important security related information.
    I would like to suggest to Congress that it revisits this 
issue and, if possible, accelerates litigation such as the 
Bennett Kyl bill. Similar legislation worked for year 2000 and 
it can work against cyber terrorism as well.
    We need the ability to pursue cyber attacks and prosecute 
them fully if we are to discourage others from attacking out 
networks and computers. I would propose that Congress consider 
legislation to further empower law enforcement to track down 
perpetrators.
    We also need reciprocal arrangements with friendly 
countries so that they will support these endeavors.
    I believe that the government should support the 
establishment of separate secured private Internets such as the 
proposed government network. I suggest that Congress encourage 
the development of these networks by providing appropriate and 
if necessary, authorizing funds to seed them.
    I would propose that Congress consider supporting programs 
to educate our people about the importance of maintaining the 
security of the networks and computers of our critical 
infrastructure.
    I would suggest that Congress consider funding a permanent 
information coordination center along the lines of that 
established for the year 2000 period, which was subsequentially 
dismantled. There should be a dedicated section in the center 
for cyber security.
    Finally, I would suggest that Congress support the 
development of a national strategy for protecting the Nation's 
critical infrastructure.
    I recognize that I am proposing a costly series of programs 
at a time when budgets are tight. However, the size of threats 
are very real and we must protect ourselves against them. It 
will be a long and bitter battle, but we must engage in it if 
we are to prevail.
    Mr. Chairman, again, thank you for the opportunity to 
present to you and your subcommittee.
    This concludes my statement. I will be happy to answer 
questions.
    [The prepared statement of C. Warren Axelrod follows:]

Prepared Statement of C. Warren Axelrod, Board of Managers, FS/ISAC LLC

    I wish to thank you, Chairman Stearns, and the members of your 
Subcommittee on Commerce, Trade and Consumer Protection, for the 
opportunity to address you today on the very timely questions of what 
the private sector is doing to protect itself against cyber attacks, 
what it should be doing, and how government might help the private 
sector in accomplishing its goals.
    Mr. Chairman, you and your subcommittee members, show both 
foresight and insight in focussing your attention on protecting our 
critical infrastructure from cyber attacks against the computer systems 
and networks upon which the economy of the United States of America 
increasingly depends. You are to be commended for tackling this 
important category of risk to commerce at a time when the Nation is 
distracted by the tragic events of September 11th, an unresolved 
bioterrorism attack, and a war in Afghanistan.
    Just one week after the September 11th terrorist attacks, our 
computer systems and networks were hit with one of the most devious and 
sophisticated cyber infections to date--the Nimda worm. Nimda is an 
example of a new generation of malicious software, or malware, that 
spreads in many ways and is difficult to eliminate from infected 
machines.
    Perhaps the Nation's initial focus on the aftermath of the physical 
attacks, followed a short time later with a frightening anthrax scare, 
made Nimda appear less of a threat than it actually was. The impact of 
Nimda was also considerably mitigated by organizations having patched 
their systems as a result of the Code Red worm, thereby providing 
greater protection. However, many security professionals see this 
evolution in cyber-attack capability as a very disturbing and ominous 
trend. The timing of the Nimda attack is also noteworthy, since it was 
launched at a time when a number of major financial organizations were 
operating in less-than-ideal disaster recovery modes. This suggests the 
recognition by cyber attackers that their activities can be even more 
effective against targets that are already weakened.

                             MY PERSPECTIVE

    I am a director, responsible for Global Information Security, of 
the Pershing Division of Donaldson, Lufkin and Jenrette Securities 
Corporation, a Credit Suisse First Boston company.
    Today, I intend to share with you my thoughts and suggestions on 
cyber security as someone who is an information security professional 
and a practitioner with more than a quarter of a century's experience 
as an information technology manager in the financial services 
industry.
    It is a great honor for me to represent the securities industry and 
I hope that my testimony will lead to measures that will help in some 
ways to protect our Homeland from the costly effects of cyber attacks. 
I wish to thank the SIA (Securities Industry Association) for their 
support in preparing for this hearing.
    As one of the founders of the FS/ISAC (Financial Services 
Information Sharing and Analysis Center) and a current member of its 
Board of Managers, I am firmly committed to the important role of 
information sharing in assisting the financial services industry in 
protecting itself from malicious cyber attacks.
    In the late 1990s, I co-chaired two SIA committees on Year 2000 
contingency planning and event management, which provided extensive 
guidance for the financial services industry. I recently recounted 
those efforts to the industry to help deal with today's heightened 
fears, which are not much different from those preceding Year 2000.
    Over the millennium weekend, I served in the Cyber-Assurance 
National Information Center, representing the banking and finance 
sector. The Cyber NIC was located adjacent to, and continuously in 
contact with, the Information Coordination Center(a center established 
by the Federal government to coordinate across state and local 
governments as well as with industry sectors. I was with a group of 
private sector volunteers who were monitoring the condition of 
cyberspace during a time of great concern over potential cyber attacks. 
That apprehension was not unfounded.

                      THE NATURE OF CYBER THREATS

    It is well known that, with their relatively recent and rapid 
adoption of the commercial Internet, government and business 
organizations have become increasingly dependent on a component of the 
critical infrastructure over which they have little or no control. 
Largely due to this lack of control, we have seen a proliferation of a 
whole variety of damaging creations and activities, such as viruses, 
worms, denial-of-service attacks and network and system breaches. With 
such accelerating use of the Internet, the impact on commerce of 
unintentional network and system breakdowns and deliberate acts of 
destruction and compromise is greater each day.
    Another way in which cyber malfeasance differs from physical acts 
of terrorism, is that location, cost, and fear of arrest and punishment 
do not seem to hinder or deter cyber terrorists. While thousands of new 
viruses and worms are created each month, relatively few make it from 
``the zoo'' into ``the wild'' and cause significant damage. While there 
are millions of scans of the Internet run each day by those seeking out 
weaknesses, only a very small percentage result in actual system 
compromises. However, since the number of attempted attacks and the 
population of potential victims are both so enormous, even a very small 
rate of success has produced estimated damage in the billions of 
dollars per year over the past several years.
    Some forms of malware, such as viruses, are released onto the 
Internet by their creators and spread from system to system through the 
unknowing complicity of others, not unlike their physical counterparts. 
Modern viruses and worms frequently incorporate ``social engineering'' 
to get their unwitting accomplices to take actions, such as opening an 
e-mail attachment, that will propagate their payloads. The ``I LOVE 
YOU'' virus was a crowning example.
    Terrorist groups or hostile countries would not generally use 
viruses and worms to compromise an enemy's computer systems and clog 
its networks, since such attacks are not directed and could just as 
easily impact friends as enemies. Rather they would target specific Web 
sites or computer systems.
    We have seen that virus developers and activators (who are not 
necessarily the same individuals) tend to be out to undermine society 
in general or make a name for themselves among their peers. However, 
the damage from viruses to commerce and government can be very large, 
and measures are needed to reduce their impact, if not eliminate them 
entirely.
    Cyber attacks that are more directed can take several forms. Most 
commonly, the attacker will search for exposures in the software 
products and equipment that typically make up organizations' defenses 
and seek access into such systems by exploiting their vulnerabilities. 
When access has been gained, the attacker will try to gain control of 
the system as a so-called privileged user. Once in control, the 
attacker may destroy, alter or steal data (including nonpublic, 
personal consumer information), programs and other information assets, 
such as credit card numbers, or may change various features of the 
system, such as by defacing public Web pages. Alternatively, attackers 
may leave some program code in place to facilitate their own future 
access and potentially perpetrate a distributed denial-of-service 
attack on a particular Web site.<SUP>1</SUP> The targets of such 
attacks are determined in advance, and the attackers have to take 
specific actions (versus their passive role in the spreading of 
computer viruses) to carry out such an attack.
---------------------------------------------------------------------------
    \1\ In a distributed denial-of-service attack, the attacker will 
compromise a number, perhaps in the hundreds or thousands, of weakly-
defended computer systems and turn them into ``zombies'' by depositing 
some program code on those systems. At a particular point in time, the 
attacker will instruct all the zombies to direct a flood of messages at 
a specific site, which is overwhelmed and taken out of service.
---------------------------------------------------------------------------
    It is because cyber attacks can be hugely disruptive and costly 
that we are compelled to take protective measures.

                     MEASURES THAT HAVE BEEN TAKEN

    In this section, I will discuss what measures have been taken 
generally, and, where appropriate, by the banking and finance sector in 
particular, according to the categories of deterrence, avoidance, 
prevention, recovery and restoration.

Deterrence
    From an economic perspective, it does not really matter what the 
source or type of attack may be. After all, the damage can be much the 
same from a virus, worm, denial of service, or information destruction 
or theft, whether the perpetrator is a recreational hacker, terrorist, 
or hostile government or government-sponsored group. Indeed, internal 
staffs have initiated some of these same compromises, whether 
intentionally or not.
    However, from a deterrence point of view, there is a big 
difference. If the source is domestic, then there is a greater 
possibility of arrest and due process, whereas if the attacker is in a 
foreign country, particularly one hostile to the U.S., the chances of 
capture are much diminished, even when the perpetrator is identified. 
Law enforcement has tracked down quite a number of violators, but in 
general the risk of apprehension has been low and the punishment 
moderate. I think that we can safely say that deterrence generally has 
minimal effect and that the attacker population continues to increase 
rapidly, as can be seen from the continuing upward trend in the number 
of incidents and the increasing effectiveness of their weapons (i.e., 
viruses, worms, and other malicious programs).

Avoidance
    The ease of use, global reach and low cost of the Internet have 
been major motivators for government and business, as well as for 
individuals, to move commercial activities to the Internet. With this 
growth, however, comes the increasing risk of cyber attacks. Even if it 
were desirable, which it generally is not, restricting the use of the 
Internet is difficult to accomplish, although many have stated that 
electronic commerce (e-commerce) has been significantly held back due 
to the lack of security, and hence privacy, for commercial 
transactions.
    In such situations implementing security measures is seen as 
enabling commerce in situations where consumers' information would not 
be protected adequately without the measures. Thus, it is possible to 
have a Web site certified by a third party. However, many customers are 
not aware of these certifications nor is there overwhelming evidence 
that customers choose one site over another because of certification.
    Many organizations use specialized software products to block 
employees' access to certain Web sites that they deem inappropriate. 
This tends to reduce the risk of accessing less well-protected Web 
sites that might be harboring a worm, such as Nimda. Similarly, 
organizations strip off specific attachments on incoming e-mail, such 
as those with file names with ``exe'' extensions, which are more likely 
to harbor viruses and worms.
    There are signs that private Internets may be considered an answer 
to cyber security in some situations, as with the recent call for a 
private GovNet by Richard Clarke, recently-appointed chairman of the 
President's Critical Infrastructure Protection Board.
    Avoidance served to reduce risk considerably during the Y2K date 
transition period. Over that weekend, in particular, many companies 
shut down their Internet connections, and took their computer systems 
off line. There were also fewer aircraft in the air and many, who would 
normally be out celebrating such an occasion, were at work monitoring 
their organizations' computer systems and networks. While difficult to 
quantify, such tactics may well have resulted in far fewer incidents 
than might have been expected.

Prevention
    Since, at this time, deterrence is not sufficiently effective, and 
the pressure has been to expand services over the Internet rather than 
restrict them, we are left with preventative measures as our best hope 
for reducing potential damage from cyber attacks. The principle behind 
prevention is to identify and block cyber attacks as they happen using 
technologies such as routers, firewalls and intrusion detection 
software. E-mail is scanned for pre-specified words and phrases and 
those items that appear suspicious are quarantined. Commercial software 
is ``patched'' with the latest ``fixes'' to eliminate known 
vulnerabilities, which might otherwise be exploited directly by a 
hacker or through a virus or worm or similar piece of self-generating 
malicious software.
    If the world of cyber threats were static, then the above measures 
would eventually eliminate risks due to those threats. However, that is 
not the case. As mentioned above, there is a constant torrent of new 
dangers, and the government and business worlds must struggle to keep 
up with them. The greatest counter-force in this battle is, in my 
opinion, information sharing. Knowledge of new threats, newly-
discovered weaknesses, and actual incidents that have happened to 
others in their industries and elsewhere, gives organizations the 
opportunity to prepare for impending attacks or prevent exploitation by 
closing off known vulnerabilities. This is where the FS/ISAC comes in.

The FS/ISAC
    The FS/ISAC was a product of Presidential Decision Directive Number 
63 (PDD 63) on Critical Infrastructure Protection, dated May 1998. PDD 
63, which incorporated President Clinton's critical infrastructure 
strategy, required government agencies to partner with the sectors that 
make up the critical infrastructure. The PDD additionally suggested 
that various industry sectors form Information Sharing and Analysis 
Centers, or ISACs, which would collect and analyze threat, 
vulnerability, and incident data. The U.S. Department of the Treasury 
is the designated partner of the banking and finance sector. Treasury 
has been, and remains, extremely supportive of the FS/ISAC. Treasury 
Secretary Robert Rubin was very encouraging during the initial stages 
of the critical infrastructure effort for the banking and finance 
sector and Treasury Secretary Lawrence Summers officially launched the 
FS/ISAC on October 1, 1999.
    With almost 50 full-time members and another 50 firms in a trial 
program, the member companies of the FS/ISAC membership account for the 
processing and protection of perhaps 80 percent of the financial assets 
handled by U.S. financial institutions. The FS/ISAC provides warnings 
of threats and vulnerabilities, up-to-the-minute notification of 
incidents as they unfold, and helpful advice as to how to avoid or 
prevent threats from turning into disasters. It does so according to a 
unique model, which I will now describe.
    The FS/ISAC derives its information from many sources, including 
government agencies. Members are expected to report security 
information or experiences to which they are privy. This information 
can be submitted anonymously or can be attributed, at the member's 
discretion. While, for anonymous submissions, the FS/ISAC does not know 
the originator of the information, authentication technologies ensure 
that the submitter is actually with a member company.
    The FS/ISAC analyzes incoming information with respect to validity, 
importance, timeliness, and severity. If the submission passes muster, 
it is then ``scrubbed'' to remove all indications of the source (unless 
it is expressly permitted to reveal the source), and notifications, 
with warnings as to their urgency, are disseminated to members via e-
mail, pager, telephone or fax. Unfortunately, over the past two months, 
members have received distressingly many alerts marked crisis or 
urgent.

Redundancy, Recovery and Repair
    Despite best efforts, it is not always possible to prevent cyber 
threats from succeeding, so that a number of incidents of varying 
severity do occur.
    In most cases, security compromises or breaches can be quickly 
resolved through the use of alternative on-site networks and systems, 
while the compromised systems are being repaired. For this to be 
possible, suitable redundant facilities need to be planned and 
installed in advance.
    If a cyber attack renders a site unusable, an organization must 
turn to its business continuity and/or disaster recovery plans as well 
as its crisis management capabilities in order to operate in recovery 
mode at a different location. It should be noted that a location can be 
rendered unusable if, for example, a cyber attack were to take down 
other parts of the critical infrastructure, such as the electrical 
power grid or telecommunications network.
    In financial services, many companies had developed contingency 
plans for Y2K. It was reported that a number of firms located in and 
around the World Trade Center invoked their Y2K plans in response to 
the events of September 11th and that the devastating impact of the 
catastrophe on firms was considerably less because they were better 
prepared. Since then, the banking and finance sector has ramped up 
several initiatives, including a crisis management committee initiated 
by BITS (Banking Industry Technology Secretariat) and the Business 
Continuity Committee established by the SIA. As mentioned previously, 
the SIA had played an important leadership role in Y2K contingency 
planning and established a command center in New York, with which I was 
able to communicate from Washington over the Y2K weekend.
    The financial services industry, in particular, has developed 
extensive contingency plans, due to the criticality of their operations 
to the economy and from having to meet strong legislative and 
regulatory requirements.

                      WHAT STILL NEEDS TO BE DONE

    While I believe that the banking and finance sector has reason to 
be proud of the initiatives that it has already put in place, there 
remains a considerable amount still to be done before we can feel 
comfortable with our state of preparedness.

Information Sharing
    The FS/ISAC model for the sharing of cyber security information has 
been adopted by a number of other critical sectors at home and by 
several countries internationally. In addition, the FS/ISAC has had 
discussions with these and other ISACs regarding the sharing of cyber 
security information, while still maintaining anonymity of the source 
when desired. The goal is to have a global network of ``friendly'' 
ISACs to leverage the advantages of a broader reach and a larger 
population of incidents from which to derive patterns of activities 
that might lead to an attack.
    The FS/ISAC receives information from many government agencies, 
including intelligence and law enforcement, and disseminates it among 
its members. Unfortunately, it is not yet feasible to return the favor 
and provide government with information that the FS/ISAC has obtained 
from its membership, since there are antitrust and freedom-of-
information issues that need to be resolved.
    I feel strongly that the broadcasting over the Internet of 
information about vulnerabilities by those who think that they are 
benefiting mankind by forcing software vendors to strengthen their 
products is misguided and damaging to the information infrastructure. 
For example, the Code Red virus appeared just a couple of weeks after a 
security expert had posted a notice on the Internet about a specific 
vulnerability in a particular piece of Web server software for all to 
see. His rationale was that the particular software vendor had not 
responded to his exhortations to fix the problem. Code Red resulted in 
possibly billions of dollars in lost business. How much better would it 
have been if the network of ISACs had been informed and had distributed 
the information on a need-to-know basis to its members? In fact, 
members of the FS/ISAC had received prior notice of an update to the 
software in question that, if applied to their systems, avoids the 
effects of this particular virus.

Outreach, Education and Training
    There is a clear need for reaching out to the general public, 
educating them about cyber security and making them aware of reasonable 
precautions that they might take to limit the impact of a cyber attack. 
This should be done without arousing undue concern or revealing 
information that would not be in the national interest.
    There is a severe shortage of qualified information security 
professionals to handle the broad spectrum of knowledge and 
capabilities required in order to protect our government agencies and 
private businesses from the increasing threats to the computers and 
networks that make up the critical infrastructure. We need programs to 
educate and train the requisite numbers of individuals in the basics if 
information security and to provide on-the-job training for 
practitioners in related areas. Some private companies are already 
doing this, but security certifications of various types need to be 
encouraged so that more of those on the Internet have taken necessary 
actions to secure their system and network environments.

A National Strategy
    It is key to educate the general public and those in leadership 
positions of the issues surrounding cyber security and its importance 
of sustaining the critical infrastructure. Several National Plans for 
ensuring the protection of the U.S. critical infrastructure systems 
have been written. One for government agencies was published in January 
2000. Sector plans have been developed but not disseminated as yet. I 
worked on the draft of the Banking and Finance Sector National Plan for 
Information System Protection. These planning documents, or ones very 
like them, should be shared with industry leaders and the public and 
should become the basis for a National Strategy for Homeland Security, 
as it relates to cyberspace.
    At the moment the destiny of the National Plan documents is not 
clear. Prior to the establishment of the Office of Homeland Security, 
the Critical Infrastructure Assurance Office (CIAO) was coordinating 
the collection and aggregation of the plans from the various critical 
sectors.

Research and Development
    One way to keep up with, and even get ahead of, cyber attackers is 
to develop tools with the ability to rapidly identify and block 
attacks, to determine vulnerabilities in deployed systems and networks, 
and to discern suspicious activities before they develop into full-
blown attacks. An active, well-supported research and development 
program for cyber security should be initiated. The topics being 
researched need to have a strong practical bent and meet the needs of 
the private sector.

Separate Networks
    The building of separate, restricted and highly secured networks, 
using the technology of the Internet but not being as accessible to 
everyone, is something to consider in the light of the risks in using a 
public, uncontrolled network environment. GovNet might be the first, 
but others should follow as the concept proves itself.

Simulation Modeling
    As the complexities of modern economies become even greater, it is 
not possible for an individual, or group of individuals, to understand 
all the complicated interactions and dependencies of the various 
components on one another. This can only reasonably be achieved through 
the use of simulation models to express the interdependencies and 
provide the capability to examine what might happen if certain parts of 
the infrastructure were to fail or be brought down by a cyber attack.

Contingency Planning, Incident Response and Crisis Management
    As mentioned above, the initial steps have been taken in the 
banking and finance sector to reconstitute the information coordination 
centers of the Y2K era, with their attendant contact lists, chains of 
command, and information gathering, analysis and reporting systems. 
Once communication, coordination, command and control capabilities have 
been established, it is important that they are maintained at some 
level on a round-the-clock basis into the foreseeable future and can be 
ramped up rapidly to full-scale operations when an incident occurs.

                RECOMMENDATIONS FOR CONGRESSIONAL ACTION

    There are many ways in which Congress can help promote programs and 
processes to improve our defenses against cyber attacks and our ability 
to handle them.

Information Sharing
    The willingness of industry members to share information, 
particularly about incidents, with others members of an ISAC would be 
much greater were there not the fear of infringing antitrust laws. The 
ability of private industry to share security information with 
government agencies depends very much on obtaining an exemption, for 
this type of information, from the Freedom of Information Act, since 
that would eliminate the concern that damaging information would become 
available to the public, including competitors and potential attackers.
    Both of these items were central to the ``Critical Infrastructure 
Information Security Act of 2001'' proposed by Senators Bennett and 
Kyl, but which has not yet been included in the legislative agenda. The 
proposals in the Act are key if we are to encourage a much broader 
sharing of important security-related information. This would to lead 
to broader availability of much more valuable information and 
strengthen our ability to protect ourselves from cyber attacks.
    I would like to suggest to Congress that it revisits this issue 
and, if possible, accelerates legislation such as the Bennett-Kyl Bill. 
Similar legislation worked for Year 2000, and it can work against cyber 
terrorism as well.

Deterrence
    We need the ability to pursue cyber attackers and prosecute them 
fully, if we are to discourage others from attacking our networks and 
computers. I would propose that Congress considers legislation that 
will further empower law enforcement agencies to track down 
perpetrators of cyber crime. In addition, we need reciprocal 
arrangements with friendly foreign countries so that they will support 
and participate in these endeavors.
    On a global level, it may be reasonable to expect a commitment of 
funds for law enforcement to counter cyber terrorism among the more 
prosperous and advanced countries of the industrial world. However, 
this may not be true of so-called Third World countries, especially 
those from which attacks emanate. Cyber terrorism coming from hostile 
countries requires special consideration and response.

Avoidance
    I believe that the government should support, and subsidize where 
appropriate, the establishment of separate secured private Internets, 
such as the proposed GovNet network. I suggest that Congress encourage 
the development of these networks by providing appropriate support and, 
if necessary, authorizing funds to seed these initiatives.

Outreach, Education and Awareness
    I would propose that Congress consider supporting programs to 
educate our population about the importance of maintaining the security 
of the networks and computers that constitute much of our critical 
infrastructure. Also, I suggest that the government should consider 
special programs, such as subsidizing college-level studies, to develop 
information security professionals.

Research and Development
    While I am very much in favor of promoting research and development 
programs to come up with ideas and capabilities to improve our cyber 
security, I am concerned that such research might not result in a 
sufficient number of practical solutions. I suggest, therefore, that 
R&D programs be conducted with some industry representation so that the 
results meet the needs of real-world entities.
    This is an area for which the best use of funds is not obvious. 
Therefore I suggest to Congress that a study be conducted, in 
conjunction with the private sector, to ascertain the best way to 
generate new ideas in cyber protection.

Simulation Modeling
    The development of simulation models that appropriately represent 
the critical sectors, their mutual interactions, and the impact of 
component failures is a daunting task. I am aware that Los Alamos 
National Laboratories and Sandia National Laboratories have done work 
in this area. I would recommend that Congress should support and 
encourage these efforts but that, before major commitments are made, 
the requirements of the models be determined by a working group that 
includes subject-matter experts from various critical sectors. Industry 
and government representatives should participate in the design process 
to ensure that the models are realistic and useful.

Contingency Planning and Event Management
    I would suggest to Congress that it should consider approving 
funding of a permanent Information Coordination Center (ICC) along the 
lines of the one which was established for the Year 2000 period, and 
which was subsequently dismantled. A mix of individuals representing 
both government and the private sector should staff the ICC. Under 
normal conditions, the ICC would have a minimal level of staffing, but 
have the capacity to rapidly grow to full capability if an emergency is 
declared.
    I believe that there should be a dedicated permanent section of the 
ICC that focuses on cyber security, rather than the ancillary 
arrangement that existed during Year 2000. The cyber security group 
requires extensive and immediate access to top experts in the field as 
well as an advanced capability to continuously monitor activity on the 
Internet.

National Strategy
    Finally, I would suggest to Congress that it should support the 
development of a National Strategy for protecting the Nation's critical 
infrastructure and that participants from the various sectors be 
included in the development of the plans in conjunction with 
representatives from assigned government agencies.

                               CONCLUSION

    I recognize that I am proposing an extensive and costly series of 
programs to protect the Nation's critical infrastructure from 
increasingly dangerous and damaging cyber attacks, especially during a 
time of diminishing budgets. The cyber threats are very real, as we 
have seen in recent years, and we must protect ourselves against them. 
It will surely be a long and bitter battle, but we must engage in it if 
we are to prevail, which we must. Unfortunately, the impact of a very 
successful cyber attack can far exceed that of many of the physical 
attacks, which we have seen in recent weeks and about which we 
speculate.
    Mr. Chairman, I want to thank you again for the opportunity to 
present my thoughts and experiences to you and your Subcommittee. This 
concludes my prepared statement. I am happy to answer any questions 
that you and other members of the Subcommittee wish to ask.

    Mr. Stearns. And I thank you.
    Mr. Morrow. Just pull that mike right close to you.

                    STATEMENT OF DAVID MORROW

    Mr. Morrow. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to testify before you today.
    My name is Dave Morrow, and I'm the Managing Principal for 
the Global Security and Privacy Consulting Practice of EDS. I 
have over 25 years of experience in the information technology 
field as a computer crime investigator, an IT security officer 
and an IT manager.
    I'm honored of this invitation to present to this 
subcommittee on EDS' views of the state of information 
technology security in U.S. industry.
    I will submit my full testimony for the record and 
summarize for you now.
    The tragic events of September 11 have brought many changes 
to our way of life. One of the changes are the physical 
security of public places such as airports and sports venues. 
We have witnessed a dramatic increase in the attention being 
paid to the security of what our Chairman and CEO Dick Brown 
has referred to as today's economic currency; knowledge and 
information.
    Over the past several years the frequency and severity of 
cyber attacks against both government and commercial 
infrastructures has increased dramatically. While many if not 
most of these attacks are relatively minor, such as website 
defacement and simply harassment, others are designed to 
cripple, damage or destroy the computer networks they 
encounter.
    For example, our own EDS network infrastructure detects and 
neutralizes over 20,000 viruses, worms and network attacks per 
month.
    Our economic system is based on trust; trust between 
trading and investing partners, trust between consumers and 
merchants, trust between suppliers and purchasers. If this 
sense of trust is damaged or destroyed, our economy would be 
crippled. Maintaining these trust relationships is one of the 
most important things we all can do to ensure the continued 
development and growth of our information economy.
    Since September 11, however, we have seen a great interest 
in expression of concern from corporate management and request 
for information from our clients about IT security. We've 
doubled those requests, especially in the areas of business 
continuity planning and overall security best practices.
    Tragic is a word and the events of September 11 have helped 
drive home the fact that security should be considered an 
essential investment rather than simply an expense to be 
minimized. Overall, however, I would characterize the state of 
IT security industry as poor and struggling to improve. While 
many Fortune 500 corporations focus a good deal of attention to 
security, many small and medium organizations, both in and out 
of government, still leave the bulk of the work of securing 
their systems to individuals who perform these critical tasks 
as an addition to their normal jobs and have little training to 
do so. According to the Federal computer incident response 
center, about 90 percent of successful attacks are caused by 
the lack of updated software patches, a task that is a basic to 
good security practice.
    A striking example of this can be found in the fact that 
the Code Red worm, which wreaked havoc on numerous corporate 
systems a few months ago, took advantage of computer 
vulnerabilities that had been identified and corrected by a 
software patch months before.
    Finally, while we have seen a laudable increase in spending 
on many aspects of physical security since 11 September, there 
appears to be little increase in funds allocated to 
strengthening the security of the commercial information 
infrastructure which fuels our economy.
    So what can be done? First, we can concentrate on 
developing a more coordinated program of industry/government 
cooperation that stretches beyond the critical infrastructures 
designated by PDD 63 to encompass a wider variety of companies 
and institutions.
    Also the legislation introduced by Representatives Davis 
and Moran is a good start.
    Second, we should increase incentives for companies to 
allocate the necessary funds to upgrade their IT security. 
Today's interdependent electronic economy, a failure of 
security in one area, can spread to encompass numerous other 
institutions in a very short time.
    Third, we should renew our emphasis on security research 
and development, especially in developing secure and stable 
software for our critical tasks.
    Finally, we should work together to continue to develop, 
expand and professionalize the cadre of IT security 
professionals practicing today. Currently, there are few widely 
accepted standards defining what an IT security professional 
knows and does. There's also a dramatic shortage of qualified 
IT security professionals.
    In closing, I would like to reemphasize what is perhaps the 
most important point of my testimony today. Security is not a 
static goal that we can ever fully achieve. Rather, security is 
a continual journey. There is no technical or procedural silver 
bullet that will magically solve all security issues. Rather, 
good security is a constantly evolving spectrum of processes, 
technical tools, policies, and human values that is continually 
changing and being updated to meet new threats and risks. Only 
by effectively emphasizing all aspects of this spectrum can we 
maximize the security and integrity of our national information 
infrastructure.
    Thank you again for the opportunity to share my thoughts 
with you today. I'll be glad to answer any questions.
    [The prepared statement of David Morrow follows:]

Prepared Statement of David Morrow, Managing Principal, Global Security 
                  and Privacy Consulting Practice, EDS

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify before you today. My name is David Morrow and I 
am the Managing Principal for the Global Security and Privacy 
consulting practice of EDS. I have over 25 years of experience in the 
information technology (``IT'') field as a computer programmer and 
analyst, operations chief, security officer, investigator, and 
consultant. Prior to joining EDS I was a security consultant with Ernst 
& Young LLP and Fiderus Strategic Security and Privacy Services, a 
small start-up consulting firm. I also spent 13 years of a 22-year Air 
Force career as an investigator of computer crime for the Air Force 
Office of Special Investigations (AFOSI). When I retired in 1998, I was 
the chief of the computer crime investigations and information warfare 
division for AFOSI. I am honored for this invitation to present to the 
Subcommittee EDS' views on the state of IT security in U.S. industry.
    The tragic events of September 11 have brought many changes to our 
way of life. Along with changes to the physical security of public 
places such as airports and sports venues/arenas, we have witnessed a 
dramatic increase in attention being paid to the security of what EDS 
chairman and CEO Dick Brown has referred to as today's economic 
currency: knowledge and information.
    Although media attention to cyber attacks has increased in recent 
months, the fact is that commercial and government computers have been 
under daily attack for many years. However, over the past several 
years, the frequency and severity of cyber attacks against both 
government and commercial infrastructures have increased dramatically.
    While many, if not most, attacks are relatively minor, such as web 
site defacement and simple harassment, others are designed to cripple, 
damage, or destroy the computer networks they encounter. For example, 
our own EDS network infrastructure detects and destroys over 20,000 
viruses, worms (programs that spread through a network by reproducing 
and transmitting themselves to other network systems), and network 
attacks per month.
    Over the past several years, cyber attack software such as worms, 
viruses, and hacking tools have become both more sophisticated and 
easier to use. A computer novice can now download and launch computer 
attack software as easily as launching a commonly used commercial 
product such as a word processing program.
    Although massive attacks against the national information 
infrastructure, the so called ``electronic Pearl Harbor'', have long 
been predicted and expected, such attacks have, for the most part, 
failed to materialize. In the current war against terrorism, however, 
the stakes have risen considerably. A massive, coordinated denial of 
service attack or a fast spreading program like the recent Nimda worm 
could have devastating effects on our economy, especially if the attack 
were designed to introduce random changes to various pieces of data on 
every system it corrupted, as opposed to simply slowing or halting the 
system itself.
    Our economic system is based upon trust--trust between trading and 
investing partners . . . trust between consumer and merchant . . . 
trust between supplier and purchaser. If this sense of trust were 
damaged or destroyed our economy would be crippled. Maintaining these 
trust relationships is one of the most important things we can do to 
insure the continued development and growth of the information economy.
    For many years, practitioners of IT security have worried about the 
lack of both a sense of urgency and priority for corporate IT security. 
Prior to September 11, companies often viewed IT security as a 
variable, discretionary expense that lacked a clear benefit to offset 
the costs involved. This was especially true in companies in 
nonregulated industries where no clear mandatory standards forced a 
minimum degree of security planning and structure. Since September 11, 
however, we have seen a doubling in requests for information about IT 
security, especially in the areas of business continuity planning and 
overall security best practices. Tragic as they were, the events of 
September 11 helped to drive home the fact that security should be 
considered an essential capital investment rather than simply an 
expense.
    Overall, I would characterize the state of IT security in industry 
as poor and struggling to improve. New technical vulnerabilities and 
threats, such as viruses and worms, are released on a regular basis. 
Many organizations, both in and out of government, still leave the bulk 
of the work of securing their systems to individuals who perform these 
critical tasks as an addition to their normal jobs. Because of this, 
critical security duties, such as making sure software is properly 
updated with the latest security patches, is a low priority, if it is 
done at all.
    The bulk of the problem remains rooted in a lack of continuing, 
process oriented attention to basic security principles such as good 
password practices, tracking and installing critical software patches, 
as well as user training and education on security basics. According to 
the federal computer incident response center, about 90% of successful 
attacks are caused by the lack of updated software patches.
    A striking example of this is found in the fact that the Code Red 
worm, which wreaked havoc on numerous corporate systems a few months 
ago, took advantage of computer vulnerabilities that had been 
identified and corrected by a software patch months before. The patch 
had simply not been installed in many of the machines. Another example 
can be found in the ease with which many web sites have been vandalized 
by exploiting well-known and documented flaws in web server software.
    Finally, while we have seen a laudable increase in spending on many 
aspects of physical security, there appears to be little increase in 
funds allocated to strengthening the security of the commercial 
information infrastructure which fuels our economy. While many 
companies are attempting to increase security on their own, the 
approach is piecemeal as there is no incentive from the government for 
companies to coordinate their efforts with their industry partners, 
suppliers, and customers. Such incentive is vital, especially in the 
current economy.
    What can be done?
    First, we can concentrate on developing a more coordinated program 
of industry/government cooperation that stretches beyond the critical 
infrastructures designated by Presidential Decision Directive 63 to 
encompass a wider variety of companies and institutions. Programs such 
as the FBI's Infragard are a good start, but more needs to be done to 
bolster the commercial sector's level of trust in the government. As an 
investigator of numerous network attacks, I can attest to the fact that 
coordinated information sharing among victims of an attack is essential 
to halting the attack and identifying the attacker. Companies should 
not be penalized for acting together for the common good. Legislation 
introduced by Representatives Davis and Moran is a good start.
    Second, we should increase incentives for companies to allocate the 
necessary funds to upgrade their IT security. In today's interdependent 
electronic economy, a failure of security in one area can spread to 
encompass numerous other institutions within a very short time. 
Security of all networks should be viewed as something we do for the 
good of society as a whole rather than as a discretionary cost to be 
reduced or eliminated when times are difficult. We believe that the 30 
percent bonus depreciation provision included in the House-passed 
economic stimulus bill would be a big help in this regard. We also 
think measures that specifically target investments in security and 
technology, such as those introduced by Representatives Weller and 
Upton, would be very helpful.
    Third, we should renew our emphasis on security research and 
development, especially in developing secure and stable software for 
our critical tasks. A permanent extension of the research and 
development tax credit could be part of the solution here.
    Finally, we should work together to continue to develop and 
professionalize the cadre of IT security professionals practicing 
today. Currently, there are few widely accepted standards defining what 
an IT security professional knows and does. Given the critical role 
these professionals currently play in our society, we need to insure 
that we have only the best and most trustworthy individuals guarding 
our systems.
    As a last point, I would like to reemphasize what is perhaps the 
most important point of my testimony today. Security is not a static 
goal that we can ever fully achieve. Rather, security is a continual 
journey. There is no technical or procedural silver bullet that will 
magically solve all security issues. Rather, good security is a 
constantly evolving spectrum of processes, technical tools, policies, 
and human values that is continually changing and being updated to meet 
new threats and risks. Only by fully utilizing all aspects of this 
spectrum can we maximize the security and integrity of our national 
information infrastructure.
    Thank you again for the opportunity to share my thoughts with you 
today.
    I will be glad to answer any of the Subcommittee's questions.

    Mr. Stearns. I thank the gentleman.
    Ms. Davidson?

                 STATEMENT OF MARY ANN DAVIDSON

    Ms. Davidson. Mr. Chairman and distinguished members of the 
subcommittee, thank you for the opportunity to address you 
today.
    I'm Mary Ann Davidson. I'm the Director of Security Product 
Management for Oracle Corporation. Oracle is the second largest 
software company in the world, and we are a large provider of 
secure information management systems to both commercial and 
governmental customers. A number of our customers are involved 
in national defense or intelligence activities.
    Information was on the ascendancy long before the horrific 
events of September 11 became seared into our national 
consciousness, and information security remains in our thoughts 
as we now move to strength our defenses. As ghastly as attacks 
on our physical infrastructure have been, how enticing would it 
be to our Nation's enemies to attack our critical 
infrastructure from cyberspace, where there are no borders, and 
evildoers can attack us from virtually anywhere, via a computer 
and a modem?
    The information security explosion began several years ago 
and has accelerated with the growth of the Internet, which has 
been good news for providers of secure systems and those who 
depend on them. As more companies have embraced the Internet, 
security has moved from an afterthought to an essential part of 
business infrastructure. In that sense, the commercial world is 
merely catching up to the U.S. Government in terms of the 
importance it places on information security. Prior to the 
Internet, the requirements for strong information security were 
almost solely driven a select set of ``professional 
paranoids,'' and I mean that kindly, such as intelligence 
agencies, the Department of Defense and financial institutions. 
These organizations have understood for years that information 
security is central to their operations; they are literally out 
of business without it. For organizations only recently joining 
the ranks of the security-aware, for example, by becoming 
ebusinesses, the threat that one's mission-critical systems--
now exposed to customers and partners--could be compromised has 
clearly elevated security on their radar screens.
    The good news in cyber security is that, while there is 
still no magic bullets--that's a popular phrase today--there 
are many steps that companies, whether they're suppliers or 
consumers of information technology, can take are taking to 
protect themselves. It's important to note, however, that both 
consumers and providers of information technology have 
responsibilities.
    Consumers of information technology have a requirement to 
make security a purchasing criteria. I'm sure you're familiar 
with the expression that if you don't vote, you lose the right 
to complain about the election afterwards. This is also true in 
security. If you do not make it a purchasing criteria, you lose 
the right to complain afterwards if you've been hacked.
    The other thing that consumers need to look for is 
independent attestations to the security-worthiness of a 
solution. And there are, in fact, international standards of 
what it means when you say you're secure. For example, the 
International Common Criteria, which is an ISO standard, lays 
out the requirements for vendors of secure products to have 
their solutions verified by independent third parties. That way 
it is not merely the vendor's say so that they are secure. And, 
in fact, no vendor will stand up and tell you that they have a 
security hole big enough to drive the QE III through. They'll 
all say that they're secure.
    The government has long recognized the value of independent 
third party attestations, and in fact there are directives 
which require people to procure products that have been 
independently evaluated, such as NSTISSP No. 11. I think it 
would be important to bring something like that, which I 
believe goes into effect July next year, forward in a post-
September 11 world.
    It's also important for the government not to deviate from 
these requirements. Every time sometime grants a waiver on a 
Federal procurement, you're effectively saying we said security 
was very important, but we didn't really mean it. There are 
many vendors who do provide evaluated product, and I think it 
would be important for the government as a large consumer of 
secure information systems, to get what they pay for.
    Vendors, of course, also have many requirements to provide 
better cyber security. One of them is to commit to a secure 
product life cycle; that means everything from building 
security into your engineering process because you can't add it 
after the fact, to being very aggressive in treating security 
vulnerabilities and notifying a customer base when there are 
problems in our product suites.
    Commitment to standards is also important. The more that 
security is easy to work with and fits together cohesively, the 
more widely deployed it will be and the better it will work. By 
cooperation on industry standards, it will facilitate the 
delivery of secure products and it will give consumers better 
choices. You don't get good products in a monopoly market. The 
more that there are standards, the more strong security 
providers you can have, the more secure will be the result in 
systems.
    Vendors also have a responsibility to think like hackers. 
Hackers, 98 percent of whom really just want bragging rights 
when they break into your system, they don't intend to use the 
information maliciously. It's important for companies to use 
that type of thought processes to defend their own systems, 
very much like the Department of Defense conducts war games.
    Another requirement among vendors of secure systems is to 
join industry ISAC. As the expression goes, either we hang 
together or we shall all hang separately. And typically when 
someone does break into your system, they will try the exact 
same tact on someone else's system or someone else's product. 
So it's really important to cooperate. And I believe members of 
the ISAC are represented here today.
    In conclusion, I would like to remind you--I guess I'm 
quoting you Mr. Chairman quoting me--but as with liberty, the 
price of security is eternal vigilance. We all have a 
responsibility to pay attention to it and to continue to 
elevate it our consciousness.
    Thank you for your time. I'll be happy to answer any 
questions.
    [The prepared statement of Mary Ann Davidson follows:]

  Prepared Statement of Mary Ann Davidson, Director, Security Product 
                     Management, Oracle Corporation

    Representative Stearns, distinguished members of the House of 
Representatives: Information security was on the ascendancy long before 
the horrific events of September 11 became seared into our national 
consciousness, and information security remains in our thoughts as we 
now move to strengthen our defenses. As ghastly as attacks on our 
physical infrastructure have been, how enticing would it be to our 
nation's enemies to attack our critical infrastructure from cyberspace, 
where there are no borders, and evildoers can attack us from virtually 
anywhere, via a computer and a modem?
    The information security explosion began several years ago and has 
accelerated with the growth of the Internet, which has been good news 
for providers of secure systems and those who depend on them. As more 
companies have embraced the Internet, security has moved from an 
afterthought to an essential part of business infrastructure. In that 
sense, the commercial world is merely catching up to the US government 
in terms of the importance it places on information security. Prior to 
the Internet, the requirements for strong information security were 
almost solely driven by a select set of ``professional paranoids,'' 
such as intelligence agencies, the Department of Defense, and financial 
institutions. These organizations have understood for years that 
information security is central to their operations; they are literally 
out of business without it. For organizations only recently joining the 
ranks of the security-aware, e.g. by becoming ebusinesses, the threat 
that one's mission-critical systems--now exposed to customers and 
partners--could be compromised has clearly elevated security on their 
radar screens.
    The good news in cybersecurity is that, while there are still no 
security magic bullets, there are many steps that companies--whether 
they are suppliers or consumers of information technology--can take and 
are taking to protect themselves. Consumers of information technology 
need to be discriminating; they must make security a purchasing 
criteria, and hold vendors accountable through independent proof of 
information assurance. They must create a ``culture of security'' 
within their own organizations, so that security is not diminished by 
the ``weakest link'' of a careless or unknowing employee. Vendors of 
information technology need to cooperate on security standards to 
facilitate the growth of secure systems, and commit to a secure product 
lifecycle. Paradoxically, vendors need to both join industry 
organizations that share information about hacker threats, and embrace 
the same hacking techniques that expose so many security 
vulnerabilities (i.e. to detect and mend vulnerabilities in their own 
products and networks).
    In order for any organization to secure their infrastructure, they 
need to make security a purchasing criteria. Organizations must assess 
their security requirements--and not deviate from them--as part of 
system design. If security is not built into a product or system from 
the get-go, it is often impossible to retrofit it after-the-fact. 
Organizations also need to look at the total cost of securing a system, 
including assessing the lifecycle cost of security, such as how often 
they will have to patch their systems due to significant security 
vulnerabilities. While no product is bug-free, an ostensibly secure 
product, for which a vendor is constantly issuing security patches, is 
a sign that the vendor did not pay enough attention to security during 
design, and at some level does not ``get it,'' or care about security. 
More importantly, often the single easiest way hackers break into 
systems is through public vulnerabilities for which the patch has not 
been applied. A vendor issuing a patch per day or every other day for 
their product suite is, in effect, building insecure and unsecurable 
systems.
    Industry has begun to recognize the disparate cost of securing 
products (from competing vendors) through the pricing mechanisms of 
hacker insurance; products with comparatively poor security track 
records are priced at a premium relative to their more secure cousins 
by the companies offering such insurance. For example, one widely-
deployed operating system carries a 25% risk premium relative to other 
commercial operating systems because of the difficulty in securing it. 
While the government ``self-insures'' against cyberattacks, the higher 
risk premium should serve as a signal to the government, as it does to 
the commercial sector, that a system is riskier and less secure to 
deploy. Lest we forget the stakes: it is impossible to put a price on 
national security.
    One easy measure of the security-worthiness of products is that of 
formal, independent security evaluations against objective criteria of 
``what it means to be secure.'' There have been many such criteria 
emerging in the past 15 years, including the US Trusted Computer 
Systems Evaluation Criteria (TCSEC or ``Orange Book''), the UK 
Information Technology Security Evaluation Criteria (ITSEC), the 
Russian Criteria, and most recently, the international Common Criteria. 
The Common Criteria is an International Standards Organization (ISO) 
standard (15408), and as such, is the de facto worldwide standard for 
independent security evaluations. An independent security evaluation 
against the Common Criteria is mutually recognized by multiple 
countries, including the US, the United Kingdom, Germany, and most 
recently, Israel. This enables a vendor to create a single product 
``acknowledged to be secure'' in many major markets.
    The US Federal government has already realized the value of 
independent security evaluations, as witnessed by the many Federal 
procurement programs (for example, in the Department of Defense) 
requiring that a product has completed a formal security evaluation. 
The National Security Telecommunications and Information Systems 
Security Policy (NSTISSP) No. 11 requires (as of July 2002), that 
procurement of commercial off-the-shelf (COTS) information assurance 
(IA) and IA-enabled IT products to be used on systems entering, 
processing, storing, displaying, or transmitting national security 
information be limited to those which have independent security 
evaluations (i.e. against the criteria outlined above, or the Federal 
Information Processing Standard (FIPS)-140, which attests to the 
correctness of cryptographic modules).
    Information assurance efforts are undermined by procurement efforts 
which bypass these directives. Each time a procurement waiver is 
granted that evades the requirement for evaluated product, it negates 
the value of information security, and the efforts of vendors who do 
comply with Federal directives. An independent security evaluation of a 
large complex product, such as a database server, represents about 
$500,000 of additional security quality control, by someone other than 
the vendor. Independent security evaluations are the ``good 
housekeeping seal of security,'' and customers of information security 
products neglect or negate them at their peril. As the saying goes 
``you get what you pay for;'' the US Federal government, as perhaps the 
largest consumer of secure systems, must demand better security in 
their procurements and accept nothing less.
    An important factor in a strong cyberdefense is the level of 
awareness of the entire organization--not merely the information 
technology (IT) department--of the importance of security. The creation 
of a ``culture of security'' is a factor in any organization's 
cyberdefense, for the reason that you can never hire enough 
``cyberpolice'' to secure your infrastructure without the cooperation 
and awareness of the users of the infrastructure. The best security 
policy in the world can be defeated by users who are ignorant of their 
responsibilities under it, or who deliberately flout security policies, 
much as an alarm system will not protect your home if you leave the 
door unlocked, or the spare key under the mat. Not every organization 
requires a culture of security on the order of the National Security 
Agency; yet every organization has secrets. Creating and enforcing 
security policies must go hand in hand with employee education and 
awareness. Most employees want to do the secure thing, but they need to 
know what it is.
    Industry associations such as the IT industry ISAC (Information 
Sharing and Analysis Center) finds multiple organizations unified 
against a common threat of cyberattack. Hackers have a nasty habit of 
repeating prior successes; as one discrete type of vulnerability is 
exposed, the hack is repeated through similar products from that 
vendor, or from other vendors. An organization that shares information 
about a threat to it, whether it is outright attacks on that 
organization's networks and systems, or a vulnerability in their 
product--even at the risk that the vulnerability will be used against 
it by a competitor--helps strengthen the entire nation's critical 
infrastructure. As the saying goes ``we must all hang together or we 
shall surely hang separately.'' Fierce business rivals can and are 
cooperating in industry ISACS, including the IT industry ISAC. IT ISAC 
alerts are part of the early warning system for cyberattacks; many of 
the companies whose products are the foundation of the nation's IT 
infrastructure are members of the IT industry ISAC.
    The cooperation of many vendors upon common security standards 
facilitates a secure infrastructure in several key ways. One of them is 
that a protocol that is well-defined and subject to peer review is, all 
other things being equal, more likely to be secure than one that is 
proprietary and shrouded in secrecy. ``Security by obscurity,'' the 
practice of hiding a product's security mechanisms and hoping someone 
cannot discover a weakness, does not work. Hackers are all too clever 
at reverse-engineering code and finding security weaknesses. If it's 
not secure under the light of day, it is not secure at all. Consumers 
of secure systems should seek security standards-compliant product, as 
it increases the chances that the security works, and will work with 
other related products.
    Another way in which standards facilitate better security is that 
it is easier for vendors to integrate security into their products; 
security is easier to deploy and more widely-deployed when there are 
common integration interfaces. Finally, the growth and adoption of 
standards goes hand in hand with market expansion, and this provide 
consumers of security-related products with greater choice of higher 
quality products. You just do not get good products in a monopoly 
market dominated by proprietary security mechanisms, or one in which 
security solutions are fragmented and do not work together.
    An example of this is the growth of public key infrastructure (PKI) 
a security technology with important applications including network 
encryption (e.g. via the Secure Sockets Layer, an Internet standard) 
and digital signatures, which can enable non-repudiation of electronic 
transactions. The PKI market has been slow to grow, because ``I'' is 
the operative word: deployment of a PKI requires major infrastructure 
changes in all products that use it, which has historically been 
expensive and difficult. Until recently, many vendors of PKI products 
and services were more concerned with pushing their proprietary 
technology than cooperating on standards, and growing the market. It 
has only been with agreement upon and adoption of standards that PKI 
has been broadly deployable.
    Private industry offers many specific cybersecurity technologies 
that can potentially enable us to better secure other aspects of our 
nation's critical infrastructure. For example, one of the lessons of 
September 11 is the necessity of sharing data among interested parties, 
real-time, while preserving ``need to know.'' At the same time, the 
needs of national security and privacy must be carefully balanced, so 
that the privacy of all is not compromised to identify the few who are 
malefactors. For example, ``watch lists'' could be compared against 
airline reservation databases, and only those matching records culled 
and labeled so that those with ``need to know'' could access them. 
Suspect names from intercepts from one entity could be centralized in a 
database, with selected access by other law enforcement agencies. The 
data, of course, needs to be labeled with appropriate security 
classifications and compartments, and may be relabeled real-time to 
facilitate information sharing among greater or lesser groups of law 
enforcement organizations, intelligence agencies and other parties with 
need-to-know.
    Commercial technology exists today from Oracle Corporation that 
enables multiple companies' data to be stored in the same database, 
ensuring that Company A only sees Company A's data, and Company B sees 
Company B's data. Data may also be accessed by both companies (for 
example, if they are trading partners), and can be natively labeled 
with sensitivity classifications (e.g. ``Company Confidential: A and 
B'') much like government classifications of fine granularity (e.g. 
``Secret'' or ``Top Secret: Project X''). The ability of commercial 
off-the-shelf software to natively manage data ``owned'' by different 
entities, and label data with sensitivity classifications, allows both 
separation and sharing of data, real-time. We believe this technology 
to be even more valuable in ensuring national cybersecurity than it is 
for supporting hosted information systems, exchanges, and ``communities 
of interest'' on the Internet, where it is currently used.
    The practice of ``ethical hacking'' is being employed by many 
companies as a cyberdefense, much as the armed forces conduct wargames. 
The notion is simple: break into your own systems--or, in the case of 
software and hardware providers, break into your products--before 
someone else does. Learning how to think like, and act like a hacker 
makes it easier to build hack-resistant or hack-proof product. 
``Lessons learned'' from hacking attempts can be used to educate IT 
professionals and product developers, as well as continuously improve 
engineering processes. Ethical hacking is an important weapon in a 
company's security arsenal.
    Ironically, the best cyberdefense for our infrastructure may be the 
hacking community itself. The vast majority of hackers merely want 
``bragging rights'' among their peers for discovering a security 
vulnerability; they are not malicious with that knowledge. The more 
that hackers expose product vulnerabilities and contact the vendors 
whose products they so creatively break into, giving them time to 
address the vulnerabilities, the more secure the resulting product is. 
As much as no vendor likes hackers going after their product, we learn 
from them and we build better product because of them. It's not too far 
fetched to think that a ``cybercorps'' of hackers can measurably help 
secure the nation's critical infrastructure against the hackers of a 
malicious foreign power.
    There are no security magic bullets. Industry and government, 
consumers and purveyors of information technology: each must each do 
his part. The price of cybersecurity, as with liberty, is eternal 
vigilance.

    Mr. Stearns. I thank the gentlelady.
    Mr. Klaus?

                 STATEMENT OF CHRISTOPHER KLAUS

    Mr. Klaus. Chairman and members of the subcommittee, thank 
you for giving me the opportunity to testify today.
    I'm the founder and chief technology officer of Internet 
Security Systems. I've been in security for about 10 years. And 
Internet Security Systems has grown to be a global company and 
pioneered in the area of intrusion detection, vulnerability 
assessment, finding a lot of the holes that are on the Internet 
today. And we put together a team we call X-Force. It's about 
100 security researchers who do nothing but examine all the 
latest vulnerabilities proactively examining various vendors' 
products. We've worked with several companies that are here on 
the panel in terms of helping identify issues, working with 
them to correct a lot of security holes in their products so 
they can be more robust. And we have a data base of over 10,000 
vulnerabilities and threats. So we're kind of like the CDC for 
computer vulnerabilities.
    I guess was looking to address, how have we changed since 
9/11. I think, overall, companies are getting more serious 
about security, but I think there are some other factors that 
have increased the awareness of security. It's really been the 
automated attack tools out there, Code Red, Nimba that have 
proliferated and has had probably the most dramatic effect that 
I've seen in my history of security in terms of talking to 
companies where almost company I've talked to has been nailed 
by Nimba and has been infected all over their network. And one 
of the ramifications of that has been a shift in probably the 
leadership within the security groups of large companies.
    Probably a year ago or more you'd go into a company and 
you'd talk to them. And the person in charge of security was 
somebody whose real technical. He could explain the bits and 
bytes of security. In the last 6 months we've seen, you know, 
almost everybody I meet who is charge of security now is 
somebody who had nothing to do with security in the past, who 
was a business person focused in on solving the security issue 
for corporations. And it makes it easier for us, because we're 
able to talk with them and they're able to translate the bits 
and bites to getting more resources, putting in the proper 
policies, etc, for a lot of the companies out there. So we're 
seeing an increase within the priority of elevating somebody in 
terms of business.
    So it's happening on the private sector, and I think it's 
also happening within government where we're seeing like 
Richard Clark being in charge of security reporting up to the 
President. So that's all improvements.
    One of the things that, you know, there's a lot of people 
screaming ``security, security, we need more it.'' And I wanted 
to kind of just talk about, you know, how real is the security 
issue or how real is cyber terrorism.
    Last week I was with Howard Schmidt at a conference, and we 
talked about a lot of the security issues and how real are 
they. And I think a lot of the automated attack tools like the 
Nimba, were not designed to be that bad. They were bad, they 
speak all over, they caused a lot of people to clean up a lot 
of machines, but realistically without much development cost. 
If you tried to add in some additional malicious features like 
after 2 hours of being infected and trying to spread itself, 
someone could easily make a program to go out and try to erase 
the hard drives of not only the computer itself, but all the 
computers on the network.
    We're also seeing the capability of sharing very sensitive 
files. I think SirCam virus would email personal files off your 
computer to your friends without your permission. And I've had 
several friends that were like ``Oh, my God. I'm glad certain 
files did not get out.'' You know, it just happened that it was 
very limited in number of files.
    But with Nabster like program out there, even though 
Nabster itself is not as popular, there's been a ton of other 
Nabster like clones out there where if somebody wanted to, they 
could share lots of sensitive data across the Internet. And to 
that extent, it would probably take about 2 months to develop a 
much more malicious attack that utilizes the same capabilities 
of Nimba, Code Red. So it is very real in the potential that 
somebody could do that.
    Some of the other threats out there we've discussed, such 
as DNS attacks. The domain name services. When you type in 
``whitehouse.gov,'' it uses the DNS service to translate that 
into basically the IP address. It's like a lookup of all the 
addresses on the Internet.
    All the DNS servers, there's only 13 DNS servers that 
represent the core root of all DNS servers. So with 13 machines 
out there, somebody if they were clever, just like they could 
try and bring down the whitehouse.gov with a flood or a denial-
of-service, you could attack 13 DNS servers and bring down the 
ability to look up addresses on the Internet. And if you can't 
look up addresses on the Internet, a lot of businesses are 
going to have trouble communicating with their other partners, 
etc. So that's an area that could easily be improved on.
    And also denial-of-service. We're seeing that, going back 
to consumers, most of the threat of denial-of-services actually 
originate from the fact that so many people are logging on to 
cable modems, DSL servers, DSL modems and the fact that they 
don't have a personal firewall or any protection on their home 
computer. And those computers are being infected or compromised 
in large numbers, and it's very easy to use 10,000 home 
computers on a cable modem to attack any network in the world 
and have a dramatic effect on their ability to do business.
    Some of the solutions out there that we're seeing companies 
starting to do. Penetration testing, security assessments. They 
call up and say, ``hey, how do I secure myself?'' And, you 
know, first up in any problem is first the assessment. And so 
many companies haven't done any kind of assessment. They're 
rolling out new ebusiness applications on their websites.
    We go into banks all the time where on the Internet you can 
get right in there and basically get into--if you want to talk 
about identity theft, you can easily steal all the data 
information right off their website.
    The other thing that was kind of surprising to me is about 
2 months ago I was at a banking conference. And it was all the 
IT guys, the guys who really know what's happening in the 
banking infrastructure. And I was ``Like how many people here 
are doing any kind of around the block, 24/7 monitoring from a 
security perspective over their network?'' So if someone tries 
to break in and steal credit cards, would somebody notice. And 
everybody put their head down, because nobody was doing it. And 
then they looked around and said ``Oh, okay, I guess we're not 
alone in not monitoring the network.'' So with that, I said how 
many think within the next 5 years will you be doing monitoring 
around the clock? And they all raised their hands, and said 
``Yes, that would be a good thing.'' So, there's a lot of 
things out there that people can be doing to improve security. 
I would say with government, the ISAC are a good movement 
forward. And I think that within government a lot of times I 
hear questions about should government regulate security, etc. 
Probably one of the things that we'd recommend is just working 
with government to make themselves a good example for others. 
Because a lot of international governments or governments 
outside the U.S. are saying what do we do about security and 
they would like to look to the U.S. Government as a prime 
example. And right now it's slowly turning around to become 
better.
    So, thank you.
    [The prepared statement of Christopher Klaus follows:]

Prepared Statement of Chris Klaus, Founder of Internet Security Systems

    My name is Chris Klaus and I am the Founder of Internet Security 
Systems, known as ISS. ISS is the pioneer and leading provider of 
information protection solutions. We are headquartered in Atlanta with 
additional offices throughout the U.S. and international operations in 
Sweden, Italy, Belgium, England, France, Germany, Japan and Latin 
America. ISS is a trusted advisor to most large U.S. commercial banks 
and several government entities. Founded in 1994, ISS has experienced 
phenomenal growth as we have addressed the critical need for companies 
and governments to protect their information systems.
    Every day, Internet Security Systems stops criminal hackers and 
cyber-thieves by researching computer vulnerabilities and threats and 
offering a unique, proactive line of defense for an ever-changing 
spectrum of threats. More and more individuals are using the Internet 
for business-to-business warfare and corporate espionage, international 
cyber-terrorism, or to generally cause havoc and mayhem in our 
technology infrastructure. ISS dynamically protects online assets 
through development of the most current protection products available 
and cost-efficient Managed Security Services. We also monitor networks 
and systems around the clock (24 x 7 x 365) from the US, Japan, South 
America, and Europe in our six Security Operations Centers and our 
Global Threat Operations Center in Atlanta. We search for attacks and 
misuse, identify and prioritize security risks, and generate reports 
and analysis explaining the security risks and what can be done to fix 
them. At the heart of our solution is our team of world-class security 
experts focused on uncovering and protecting against the latest 
threats. This team of global specialists, dubbed the X-Force, 
understands exactly how to transform the complex technical challenges 
into an effective, practical, and affordable strategy. Because of all 
of these capabilities, companies and governments turn to us as their 
trusted computer security advisor.
the tragic events of september 11 have heightened awareness of the need 
for cyber security. protection is no longer a backroom discussion, and 
  security is no longer something businesses are willing to consider 
                            after the fact.
    The threat of terrorist attacks against U.S. citizens and U.S. 
interests around the world has become the nation's most pressing 
national security issue. Even more likely are cyber attacks aimed at 
further disrupting U.S. interests and business, or sympathizers with 
general anti-U.S. and anti-allied sentiments. During the past five 
years, the world has witnessed a clear escalation in the number of 
politically motivated cyber attacks often resulting in embroiling 
hackers from around the world in regional disputes, this to the 
detriment of the corporations and government networks, specifically 
targeted or innocently attacked.
    Over the course of the last three months, hackers have launched 
sophisticated attacks, including Code Red II, Code Blue, and Nimda and 
the Nimda.E attacks. A 2001 industry survey conducted by ``Information 
Security,'' released on October 16, indicated that out of 2,100 
respondents, an overwhelming 89% experienced virus, worms, or trojan 
breeches in the last three months. This is up from 80% a year ago, even 
though 87% of respondents had deployed anti-virus software. This 
indicates the importance of constantly managing the growing and 
changing threats on the Internet and the growing complexity of 
corporate and government networks. Moreover, the percentage of those 
reporting Web server attacks increased over the past year from 24% to 
28%. These attacks cost the industry billions in lost productivity and 
system downtime.
    The writing is not only on the wall, it is on the front page of 
every newspaper in the democratic world, as well as on the minds of 
corporate officers and directors around the world. The network is the 
gateway to our assets, and it is the lifeblood of corporations and 
governments. Quite simply, it must be protected.
    The tragic events of September 11 have highlighted the need for 
increased cyber security. More attention is being paid to detection 
needed to ward off cyber terrorism. We are seeing this at a policy 
level here in Washington and in other governments that we serve around 
the world. The same trend is occurring in state and local governments. 
We are also seeing it on a demand level in terms of the number of 
inquiries that are coming into our business. As a result, we are 
engaging in much broader and more strategic risk management 
discussions, which include the network and the overall protection 
strategy for the network.
    Information is currency in today's global economy. Any organization 
with critical information assets stored on a network is at risk. The 
lone hacker may grab headlines, but industrial espionage, employee 
sabotage and simple disabling attacks actually constitute the vast 
majority of attacks against information resources.
    These incidents rarely make the evening news, but they add up to 
additional billions in business losses each year. We pay for these 
incidents through higher prices for goods and services, lower stock 
price valuations, increased insurance premiums for online business 
operations and consumer reluctance to adopt efficient, innovative 
online business opportunities.
    These attacks against information resources are a significant 
threat to our economic base and our national security. The unfortunate 
truth is that relatively few organizations are prepared to understand, 
let alone confront, the threats to information critical for normal 
business operations. Security specialists are in short supply, and 
command premium salaries. The cost of this expertise is out of the 
reach of many organizations. Meanwhile, the dollar losses continue to 
mount.
    It's no mystery how this situation has come to pass. The Internet 
is designed for rapid, simple communications. That's what allowed it to 
grow from an academic research network into the World Wide Web, and 
allowed everyone from individual users to multinational corporations to 
invent new ways to reach out to each other.
    Since security is not part of the Internet's fundamental design, it 
must be added after an application is written, a system is deployed 
and/or staff has been trained. In spite of increasing legal, financial 
and regulatory incentives to invest in security solutions, very few 
businesses focus on security as part of their core competence. Security 
measures, therefore, do not receive the attention that other, more 
profitable business operations demand. Tight budgets and overworked IT 
staff create an almost irresistible temptation to skimp on security 
until a crisis occurs.
    No one builds a house, then fits the doors for locks after a family 
moves in. No one adds tail lights and a horn to a car two weeks after 
it leaves the dealer's lot. And yet, that is exactly how we graft 
security onto our computer code. We need a more cost-effective means to 
protect the availability, integrity and confidentiality of electronic 
information. We need to make security part of the basic design of our 
information technology infrastructures.
    in responding to our customers to priority of protecting their 
information infrastructure, iss has developed a common system to manage 
     threats and vulnerabilities across the entire threat spectrum.
    A resounding request from our customers is to deliver systems that 
incorporate the ability to monitor and protect a broad spectrum of 
threats across their desktops, networks, and servers. This 
simplification in the market is being driven by the customers needs to 
protect the environment with an effective system while understanding 
that the total cost of ownership is critical to enterprise deployment.
    Security is quickly evolving and consolidating into two key 
foundational elements: inclusion and exclusion. Inclusion represents 
the security products which allow users to access the resources of a 
network or a system. These products include authentication 
authorization and the associated technologies which enable these 
functions, such as directory management systems, PKI, Smart Cards, 
tokens, authentication interfaces like biometrics and other forms of 
authentication.
    The second element of security is exclusion, defined as how do I 
keep unwanted elements off of my system? ISS defines this as 
protection, and we are leading the way to incorporate a number of 
innovative technologies into a single common agent to protect the 
system from the vast array of threats, including threats from content, 
trojans, worms, denial of service exploits and ultimately misuse by 
trusted or unauthorized users.
    What is needed is better protection, less complexity, lower cost of 
ownership and 7 x 24 services to augment and assure the integrity of 
the network and the support of the internal security operations. The 
ideal solution is a single agent to protect a system from threats, as 
opposed to several different products from several different vendors, 
which are not integrated.
    To protect themselves from all threats and minimize their 
vulnerabilities, companies need systems that will prevent and detect 
security risks at every potential point of compromise on desktops, 
servers, networks, and gateways. Earlier this year, ISS unveiled the 
industry's first pervasive protection platform strategy. Our unique 
product, Real-SecureTM, converges intrusion detection, security 
assessment, active blocking, and malicious content and code protection 
capabilities to protect against the converging and broader threat 
spectrum. Last month, we announced the next major component of our 
protection platform known as Site-ProtectorTM. As a result of this 
unified product, customers will be able to control, monitor, and 
analyze their security protection systems from one central site 
enabling them to dramatically simplify their security management, 
reduce their total cost of ownership, and increase the scale of 
management across broader segment of the network.
 america has received a wake up call that cyber security is important 
                     and can no longer be ignored.
    ISS' vast experience with security breaches has caused us to 
realize how crucial a secure infrastructure is to the safety and 
security of our society. Computer security products empower 
organizations to proactively monitor, detect and respond to increasing 
network vulnerabilities and threats to enterprise information. These 
products provide the tools vital for protection in today's world of 
global connectivity. The public needs to be aware of the breadth of 
possible security breaches. Government can help realize this goal by 
focusing more attention and funds on computer security. This includes 
educating and training the human resources necessary to implement the 
necessary security measures. Our extensive experience has shown that 
computer crimes are increasing and will continue to do so. Web sites 
are an important tool in helping government be more responsive and 
effective, but they are often a target for computer crime. Web sites 
should be set up in a secure manner and protected once they are set up. 
Everyone must learn that protection of our National Infrastructure 
requires everyone to properly update and protect their system, much 
like using a seat belt before you leave the parking spot. Government 
must be seen as a leader in protecting its systems and in assisting 
corporate and private Americans to do the same. Unless the U.S. invests 
the necessary resources in this area, America's critical infrastructure 
will be at risk.

    Mr. Stearns. I thank the gentleman.
    Mr. Casciano, for your opening statement?

                  STATEMENT OF JOHN P. CASCIANO

    Mr. Casciano. Chairman Stearns, Congresswoman DeGette and 
members of the subcommittee, I'm very happy to be here today to 
support your investigation into cyber security in U.S. 
industry.
    My name is John Casciano. I manage the Secure Business 
Solutions Group for Science Applications International 
Corporation, otherwise known as SAIC.
    As you may know, SAIC is the largest employee owned high 
tech company in the United States, about $6 billion in 
revenues. And we support both commercial and government clients 
around the world.
    With your permission I would like to submit my formal 
testimony for the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Casciano. And I look forward to your questions.
    For perspective, I've been involved with cyber security 
matters for many years in both government and industry. I come 
from a background of 32 years in the United States Air Force 
where I had the privilege of commanding organizations that were 
responsible for developing and operating defenses against cyber 
attacks, some of which have been reported in the press. Things 
like Solar Sunrise and Moonlight Maze.
    I continue to be involved in Department of Defense cyber 
security issues today. For example, I served on the 2000 
Defense Science Board Task Force on Defensive Information 
Operations and was also one of the handful of ``outside'' 
reviewers on last year's National Intelligence Estimate for 
Information Warfare threats.
    As I mentioned, today I run a business that is oriented in 
the commercial world. And as you know, for the last 5 years or 
so we've all exposed to reporting on threats and 
vulnerabilities to our information infrastructure, and I need 
not recount them here. Suffice it to say they exist, they are 
real and have had some impact on the privacy of Americans and 
on the conduct of American business in the information age. The 
thing that concerns me is that the security problems, if they 
are in fact reported at all, tends to be one or 2 day media 
stories and then they recede into the background, and yet the 
issues they raise are fundamental to American values and to the 
future of our way of life and, in fact, our prosperity as a 
Nation. They represent a legitimate constitutional concern as 
well as an economic security concern.
    Of course, there are lots of reasons cyber security hasn't 
risen to the level of public consciousness that I believe it 
deserves. First, it's difficult to understand what I call the--
it has a high geek factor. And second, it's not yet resulted in 
massive losses to individuals or businesses.
    The incidents of identity theft, release of private data, 
theft or proprietary information and impacts on the bottom line 
is apparently at a tolerable level for most people.
    Since our focus today is on business, let me make a couple 
of comments on the business response. First, many managers 
aren't really attuned to the problem. Part of the reason is the 
geek factor that I mentioned a minute ago, but part of it 
relates to the business case for investing in security. For 
many managers the problem is tossed to this chief information 
officer or to the technical staff to solve, but without the 
resources or the clout to implement and enforce strong 
security. Until cyber security becomes a CEO and a board of 
directors issue, it will not get the attention or the 
investment that it needs.
    In addition, except for some enterprises such as financial 
institutions, the business case for investing in cyber security 
either hasn't been made or hasn't been accepted. Every internal 
investment effects the bottom line, and that's certainly true 
of the cost of security. If losses due to poor security are 
generally tolerable, managers will limit their investment.
    Second, there's what I call the search for the magic black 
box, not the magic bullet, the single technology solution to 
the problem. It's my belief that there is not one there today, 
nor will there be in any future that I can envision. What needs 
to be better understood is that good security depends on three 
interdependent components: People, process and technology. If 
you don't combine all three, I think you are lacking. I think 
the national security community understands this, but I'm not 
sure that business in general does.
    The final comment that I'd like to make relates to the rule 
of government in supporting cyber security in business. First, 
I think government needs to set a better example of good cyber 
security practice. This should include steps to maintain and 
raise the information security posture in departments and 
agencies over time. They must maintain and expand funding for 
cyber security, and they need to encourage reasonable standards 
for security projects and processes. The recent grades assigned 
to government agencies by the Congress for their 2001 security 
responses are half grades and are very disappointment.
    Second, I think government needs to promote a favorable 
environment for cyber security. This includes steps to fund key 
research, more investment in training and education, and the 
granting of legal relief under the Freedom of Information Act, 
anti-trust and other regulations which currently impede 
industry cooperation in the planning and sharing of cyber 
threat and vulnerability information.
    Finally, I think there should be subsidies for cyber 
protection in industries that are especially sensitive to 
threats and which are probably least able to defray the cost 
for cyber protection.
    On balance, I'm cautiously optimistic, but much remains to 
be done.
    I look forward to your questions. Thank you.
    [The prepared statement of John P. Casciano follows:]

Prepared Statement of John P. Casciano, Senior Vice President and Group 
    Manager, Secure Business Solutions Group, Science Applications 
                       International Corporation

    Chairman Stearns, Congressman Towns, and members of the 
Subcommittee. I am pleased to be able to support your examination of 
cyber security in US industry and of how industry can effectively 
protect itself against cyber threats. This is a complex and 
multifaceted challenge. Today, I would first like to highlight briefly 
a few of the major threats and vulnerabilities related to cyber 
security for American businesses, and then discuss approaches the 
private sector can take at reasonable cost to increase its own levels 
of cyber protection and assurance. Finally, I'd like to address some 
steps the Congress could consider in promoting and encouraging an 
improved cyber security posture for US industry.
    For perspective, I have been involved with cyber security matters 
for some time both in government and in industry. During my 32 years of 
service in the US Air Force, I had the privilege of commanding both the 
Air Intelligence Agency and what is now known as the Joint Information 
Operations Center. In those assignments, I had responsibility for both 
the Air Force Computer Emergency Response Team and the Air Force 
Information Warfare Center, and had the opportunity to observe and 
direct the development of information technology capabilities for both 
defensive and offensive purposes in support of Joint operations. More 
recently, while on the US Air Force Headquarters Staff, I participated 
in developing and managing the response to the real world cyber attacks 
against the Department of Defense information infrastructure that came 
to be known as Solar Sunrise and Moonlight Maze. I continue to be 
involved in Department of Defense cyber security issues through pro 
bono work. For example, I served on the 1999 USCINCSPACE Summer Study 
on Computer Network Defense and on the 2000 Defense Science Board Task 
Force on Defensive Information Operations. I was also one of a handful 
of ``outside'' reviewers for last year's National Intelligence Estimate 
on Information Warfare threats.
    I retired from the Air Force in 1999, and for the last two and a 
half years have become involved in cyber security in the private 
sector, serving both government and commercial clients. Currently, I 
manage the Secure Business Solutions Group, the information security 
practice at Science Applications International Corporation (SAIC). SAIC 
provides diversified professional and technical services that involve 
the application of scientific expertise, and computer and systems 
technologies, to solve complex technical problems. SAIC is a Fortune 
500 company with annual revenues of $5.9 Billion and over 41,000 
employees, and is the largest employee-owned, high-tech company in the 
U.S.
    Within SAIC, the Secure Business Solutions Group provides clients 
with the full spectrum of information security offerings--consulting, 
implementation, education and training, and managed services. For many 
years, SAIC has provided support to the Department of Defense and 
several civil agencies--including support to the FEDCIRC Incident 
Reporting and Handling Services--as well as commercial clients. We 
developed and still have an interest in a commercial security firm--
Global Integrity--that created and operates the first Information 
Sharing Analysis Center, or ISAC, for the financial services industry--
as well as ISACs for global firms and for Korea. Today, nearly 40 per 
cent of my Group's business is for commercial customers concerned with 
protecting the security, integrity, privacy, and survivability of their 
business information and that of their clients.
    While the terrible events of September 11, 2001 have heightened all 
our concerns for security and are seen by many as defining the 
beginning of a new era in U. S. national security, the 
vulnerabilities--both physical and cyber--have been with us for quite 
some time. The whole trend toward globalization and the reach brought 
about by modern transportation and communications have eroded the 
sanctuary we Americans have enjoyed for over two centuries. These 
terrorist events have taken both a shocking human toll that we must 
never let the world forget and an economic toll that has been extremely 
disruptive to the American people and others around the world. One 
notable observation from these events is that the cost of entry for 
such attacks is extremely low. The cost to the perpetrators to plan and 
mount the attacks was probably less than a million dollars--certainly 
no more than a few million--while the human and economic consequences 
have been staggering. The impact of the losses to our economy alone is 
in the billions of dollars.
    For the last several years, we have observed the same low cost of 
entry for those who would disrupt or attack in cyber space, and the 
same disproportionate consequences for those who have been attacked. 
While the impacts of cyber attacks are difficult to quantify, largely 
due to the reluctance of businesses to report fully, or at all, for 
competitive reasons, we saw the stock prices of several large companies 
such as AOL and Yahoo fall significantly as a result of the Distributed 
Denial of Service attacks in 2000, and some estimates place the 
recovery and lost business costs at nearly $10 Billion. We have also 
seen the progress of E-commerce be impeded in recent years over 
concerns for the security and integrity of transactions, with probable 
significant impacts on our economic expansion and competitiveness.
    More recently, the NIMDA virus was detected and spread within a 
week of the terrorist attacks. I'm not suggesting a relationship, 
because we just don't know, but NIMDA represents a new, more dangerous 
class of virus that operates at a peer-to-peer level, infecting not 
just servers, but clients and even web pages. The losses from NIMDA--
measured directly in disrupted business and in opportunity costs of 
repair and reconstitution--may well have exceeded several billion 
dollars despite some early warning by the National Infrastructure 
Protection Center and the ISACs. The difficulty in attributing the 
sources of these attacks and in prosecuting them make them a special 
concern.
    The general sources of these cyber attacks are by now familiar, 
ranging from the ``recreational hacker'' on the low end to the more 
sinister perpetrators from international criminal and terrorist 
elements and nation-states. Following is a brief synopsis of these:

<bullet> Hackers, Crackers, and Other Outsiders. These have been the 
    most active source of background ``noise'' in the cyber 
    environment. They include casual hackers who are often juveniles or 
    ``hobbyists'' using scripted attacks and commonly available tools 
    from the Internet and its many ``clubs.'' There are also 
    professional level attackers who can design and mount novel attacks 
    against protected targets using both a combination of commonly 
    available tools and ``homegrown'' capabilities sometimes based on 
    cracking encryption. Their purposes range from joyriding and ego 
    gratification to criminal intent, where fraud or financial theft is 
    the goal. Of interest, the 2001 CSI/FBI Computer Crime and Security 
    Survey indicates among a sample of 186 business respondents that 
    internet connections and outsider activities are now generating the 
    largest source of attacks against the business information 
    infrastructure, more numerous than those due to insiders.
<bullet> Insiders. One of the most costly and dangerous human threats 
    to business has historically been the insider, and this continues 
    to be the case in the information age as well. Insiders have 
    legitimate access to at least some of the business information 
    resources and IT infrastructure of the enterprise, and often know 
    enough of the company's technology, processes, and human elements 
    to be in a good position to subvert them. They may act maliciously 
    if they are disgruntled employees--sometimes destroying, 
    corrupting, or locking out access to information. On other 
    occasions they may use the system to embarrass the business to the 
    public or use it for financial advantage for themselves and others 
    if they are industrial spies. In every case, they are clear and 
    present threats to the intellectual property, information 
    resources, IT infrastructure, and the reputation of the business.
<bullet> Terrorists and Criminal Elements. These may be foreign or 
    domestic persons or organizations, and they may launch their 
    attacks through cutouts and indirect network paths from overseas or 
    from within the US. Terrorists resorting to cyber attacks may be 
    advancing a political cause, using direct cyber action to advocate 
    environmental issues; opposing globalization, or attacking 
    modernism on fundamentalist religious grounds. In each case, for 
    them, their end justifies their means. Dramatic, headline-grabbing 
    disruption of the US economy is their goal, and US businesses, 
    especially those that are large and have a global footprint or 
    multinational operations, are attractive targets. Much of the 
    current cyber terrorist activity is low level, to include web site 
    defacement and temporary disruption of business operations. 
    However, terrorism is an activity planned and executed by the 
    alienated, and terrorists and their causes have increasing appeal 
    to students here and abroad who have the skills to become serious 
    cyber threats to business. Of particular concern is the possibility 
    of a combination of terrorist attacks against targeted businesses, 
    wherein cyber, physical, and anti-personnel actions may be taken.
<bullet> State Enabled Threats. The most complex and difficult threat 
    to combat for both businesses and governments is one that is 
    sponsored and executed with the technology and resources that only 
    a nation-state can bring to bear. Such attacks could be conducted 
    with outsiders, insiders, proxies, or combinations of all three, 
    using leading edge technologies to defeat commercial grade cyber 
    security for even the best-protected enterprises. Businesses that 
    would be logical targets for such attacks would be proprietors/
    operators of our national infrastructures (e.g., 
    telecommunications, transportation, energy/power, banking/finance, 
    etc) or those large companies that provide key products and 
    manufacturing (defense contractors, chip makers, etc). 
    Unfortunately, the numbers of nations that could conduct such 
    attacks against the US and its businesses are likely to grow, given 
    the low barriers to entry in such warfare. This is warfare based on 
    brainpower--readily available worldwide--and the weapons of choice 
    are computers, fast becoming commodities. State-enabled attacks 
    against U. S. businesses are both a national and economic security 
    threat, and they require vigilance and response by the Federal 
    government, and close cooperation by the business community.
    Malicious threats to the information and IT infrastructures of 
commercial enterprises seek to exploit vulnerabilities in business 
computer information systems. These vulnerabilities stem in part from 
worldwide business trends, paths in technology development, and 
operating standards which affect business processes and decision 
making:

<bullet> Globalization. Business is going international as never before 
    and is in a fierce worldwide competition for talent, resources, and 
    markets. Time is money and to the swift belongs victory. Commercial 
    attention is riveted on the business plan, the pursuit of core 
    business, and above all on bottom line performance. Broad 
    connectivity and numerous interfaces both within and without the 
    enterprise are needed to thrive in the ``brave new world'' of 
    globalization. However, cyber security imposes delays and 
    additional costs of doing business, both of which are unattractive 
    to business leaders responsible for customer satisfaction and the 
    bottom line.
<bullet> Open Processes. To cut business costs and improve 
    responsiveness, businesses are connecting directly with suppliers 
    and customers, sharing information, and even providing the 
    opportunity for people and organizations outside the enterprise to 
    access and input critical information on production and delivery, 
    purchasing, and marketing. This integration via supplier and 
    customer chains depends heavily on trust and constitutes an 
    inherent process vulnerability, if not addressed by cyber security 
    and other technical and operational checks. Of note, ``Information 
    Week Research'' issued a study that was conducted this spring among 
    375 respondents, 67% of whom reported that supply-chain 
    collaboration has increased in the last year. However, only 21% of 
    4500 security professionals surveyed worldwide by IWR indicate that 
    security policies include procedures for partners and suppliers.
<bullet> Wide Access. As global businesses concentrate on core 
    competencies, they increasingly rely on outsiders in maintaining 
    and supporting their administrative processes and IT 
    infrastructures. Outsourcing is increasing steadily as a means to 
    cut costs and gain additional business efficiency. Maintainer and 
    outsourcer personnel, a constantly changing parade of names and 
    faces, vetted in uncertain ways in many cases, have insider access 
    to systems and information, and therefore the opportunity to do 
    serious mischief to businesses.
<bullet> Standard Architectures. Because of the continuing increase in 
    desktop, workstation, and server computing power, the client-server 
    architecture reigns supreme, increasingly supplanting mainframes. 
    Client-server uses standard software in normalized configuration 
    for operating systems and applications; industry-wide protocols for 
    information sharing, display, and storage; and common approaches to 
    design and implementation of system and subsystem interfaces for 
    interoperability in communications and information exchange. 
    Variations in information system design are shunned due to cost and 
    support considerations, even though such variations increase the 
    immunity of the business information systems to cyber attack 
    techniques that target standardized architectures and designs.
    Over recent years, the losses to industry from cyber attacks have 
been real and steadily growing, drawing considerable media attention. 
The 2001 CSI/FBI Computer Crime and Security Survey reports a 41% 
increase in electronic financial losses among 186 business respondents 
compared to a similar sample for 2000. It is a fair question to ask why 
industry--with or without government support--has not done more to 
safeguard its information systems and the intellectual property 
contained within its information infrastructure, and to protect its 
bottom line. There are several apparent answers:

<bullet> Many managers aren't attuned to the problem. Cyber security is 
    a consideration for them, but the losses attributed to security 
    lapses are tolerable for many; that is, they view them as part of 
    the cost of doing business. To the extent that managers are attuned 
    to it at all, they generally put the issue into the hands of their 
    Chief Information Officer, who may not have the resources or 
    operational clout to implement and enforce security solutions. The 
    lack of senior management attention is further exacerbated by a 
    failure in current accounting methods to attribute current real 
    costs of losses due to cyber insecurity in business, and to assess 
    the potential magnitude of future losses that could accrue as the 
    cyber threat to business grows.
<bullet> Poor cyber security performance by government. Starting with 
    the federal government and extending to state and local levels, 
    government ``talk'' about cyber security has generally far exceeded 
    the resource commitment and management attention it has been 
    willing to devote to the problem of protecting the privacy, 
    integrity, and access to government information and information 
    infrastructure. This judgment has been validated on an annual basis 
    by the House Government Reform Subcommittee on Government 
    Efficiency, which for FY 2001 has awarded government a grade of 
    ``F'' for its overall cyber security posture. Two thirds of the 
    agencies and departments failed based on the information they are 
    required to provide the Office of Management and Budget. Here, the 
    parallel with the business world is striking, as resources for 
    security solutions are scarce and often considered a problem for 
    the technical staff and not the operational leadership. Federal 
    jawboning of industry on cyber security has led to a proliferation 
    of advisory and coordinating organizations, but precious little in 
    the way of practical technical support, tailored alerting/warning 
    systems, security incentives, or subsidies to industry to improve 
    cyber protections. In sum, government sets an uncertain example and 
    has provided little help to industry in coping with cyber security 
    issues.
<bullet> The ``commons'' problem. Enterprise IT environments are 
    growing, changing, and being used in new ways such as to resist 
    system identification and configuration control. They contain an 
    expanding number of real or potential vulnerabilities in their 
    software, hardware, communications, internal/external interfaces, 
    people, and processes. Moreover, they are frequently subject to 
    decentralized control and resourcing. Everyone depends on them, but 
    nobody owns them. Line organizations do not want to pay for IT, far 
    less cyber security, because of the ``free rider'' problem in 
    funding the IT ``commons'' and ensuring its security. Within a 
    business sector, losses due to cyber insecurity may be tolerable if 
    they are judged to be comparable to other costs of doing business, 
    and especially if competitors appear equally affected by the same 
    cyber attacks. The business case for cyber security so far is not 
    well made in businesses outside the financial sector, which 
    necessarily must lead integration of cyber security capabilities 
    into its IT infrastructure based on historic experience with fraud, 
    embezzlement, and theft. Government is waiting for industry to 
    solve the cyber security problem technically, and is waiting too 
    for its shrink-wrapped product solutions. Industry looks upon it as 
    too big, too complex, and too diverse to tackle without government 
    funding and legal relief from public information (FOIA) and anti-
    trust. The ``commons'' problem of cyber security will be dealt with 
    over time, either by an insurance approach, by regulation, or by 
    some combination of the two. For now, however, industry does not 
    have the means, authority, or motivation to work a global solution.
    Given the threats and vulnerabilities that businesses face, and the 
tough, highly competitive business environment that keeps management 
attention on bottom line issues as opposed to security, what can 
enterprises do to improve their security postures? In developing a 
suitable cyber security posture for a business, there are certain top-
level actions that management must take, and they are independent of 
the size or resources of the company. In the final analysis, sound 
security depends on three interdependent elements: people, process, and 
technology. The elements outlined below are intended to size the 
requirement for cyber security using the same logical approaches 
employed for any other business decision:

<bullet> Develop and deploy a sound security policy. This is a no cost/
    low cost first step that many businesses fail to take. What is the 
    general approach to security and how will it be addressed and 
    inculcated organizationally? What behaviors and what competencies 
    are expected of users of enterprise IT and information? What will 
    be the standards for access and the levels of information 
    sensitivity? How will management oversight of security be conducted 
    and performance measured over time? How will security lapses be 
    dealt with?
<bullet> Identify critical information, processes, and systems. What 
    constitutes the major components of the critical IT infrastructure 
    and critical business information, and what levels of protection 
    are required for each? The objective is not to eliminate the threat 
    altogether, but rather to manage it.
<bullet> Analyze threats and vulnerabilities. What are the real sources 
    of threats and vulnerabilities to the business's IT and 
    information? These are based on business sector experience, state 
    of the world, competition, enterprise footprint, and future 
    business plans. What are the technical, process, and operational 
    vulnerabilities in the IT infrastructure and information resources?
<bullet> Perform risk management. In examining the combination of 
    threats and vulnerabilities affecting the enterprise IT 
    infrastructure and its information, it is important to make 
    informed and deliberate management decisions about how to deal with 
    risks, consistent with sound business principles. The choices are 
    several, but depend on an assessment of how much risk a business 
    can tolerate versus how many resources it has to commit:
<bullet> Avoid risks. Take actions that eliminate or do not incur the 
    threat/vulnerability duality of concern in the first place.
<bullet> Shift risks. Use insurance when available or move liability to 
    others if a threat/vulnerability must be faced. Cyber insurance is 
    a nascent but developing specialty in the insurance industry as 
    work proceeds on identifying risks and developing tools to set 
    premiums.
<bullet> Mitigate risks. Take technical and/or procedural steps to 
    reduce the threats/vulnerabilities if necessary, economic, and 
    efficient to do. With improvements in security technologies and 
    products, the choices for mitigation are on the rise.
<bullet> Accept risks/develop contingency plans and backups. Risks that 
    must be run and which are expensive but improbable in occurrence 
    may be accepted if downside plans and alternative approaches can be 
    developed in advance.
<bullet> Revisit and review. With changes in the threats and 
    vulnerabilities, the whole range of technologies, business 
    processes, people, and IT infrastructure, assumptions and decisions 
    about the level and extent of cyber security must be subject to 
    periodic management reconsideration.
    In facing up to the requirements for improved cyber security, there 
are certain bedrock principles that any business, regardless of size, 
should consider in developing procedural solutions. They are not 
technology driven and do not require capital investment as much as 
management attention.

<bullet> Ownership: Identify primary and alternate system and data 
    owners to be responsible for identifying the sensitivity and 
    criticality of the information on their systems and validate 
    protection controls and access requirements.
<bullet> Accountability: Hold individuals with access to information 
    responsible and accountable for protecting information while in 
    their possession.
<bullet> Awareness: Users are the first line of defense. They should be 
    educated about policies, standards and procedures and adhere to 
    them.
<bullet> Detection & Monitoring: Implement tools and methods to detect 
    misuse and anomalous activities on both a real-time and periodic 
    basis.
<bullet> Incident Response: Develop and publish a response plan that 
    details actions required when a violation to the security policy is 
    detected.
<bullet> Defense in depth: Implement security measures in multiple 
    layers versus single layers, and place security devices as close to 
    the item of value as possible.
<bullet> System Configuration: System vulnerabilities that can be 
    eliminated without reducing functionality should be corrected. 
    System support devices and data storage should contain only 
    applications or services for which a business reason exists.
<bullet> Assessment/Audit: Conduct periodic reviews of systems, 
    networks, and applications against policies, standards and 
    procedures to test and measure compliance and determine 
    vulnerability to emerging exploits.
<bullet> Reliable Records: Maintain secure chronological records and 
    logs on significant activities on the network and critical systems.
<bullet> Recovery: Implement tools and mechanisms to ensure 
    recoverability and business continuity.
<bullet> Access: Personnel, systems, or applications should only be 
    granted access rights and privileges based on justified business-
    related requirements. These rights and privileges must be exercised 
    within the scope and limits of identified responsibilities.
<bullet> Exception: Exceptions to policies, standards and procedures 
    should be granted or denied based on individual review and 
    management acceptance of risk. All exceptions should be documented.
<bullet> Research: Investigate, study, and understand emerging security 
    technologies and techniques to develop appropriate methods and 
    controls that protect against ascending threats and 
    vulnerabilities.
    The cyber security problem has spawned significant creativity in 
the development of improved cyber security products by many vendors. 
Properly selected, integrated, configured, deployed, operated, and 
supported, these can upgrade the security posture of any business. With 
increasing attention to and demand for cyber security, and the growth 
in the commercial cyber security industry, the general classes of 
security technologies and capabilities below are emerging as shrink-
wrapped products which are easy to integrate into IT infrastructures. 
In parallel, IT product vendors are increasing the direct integration 
of cyber security functions into their own software lines, making each 
generation more secure and robust. However, a word of caution! There is 
a real danger in looking for a single, ``black box'' solution to an 
enterprise's security problems. It is my belief that there is not one 
today; nor will there be in any future I can envision. The combination 
of people, process, and technology offers the best hope of managing 
cyber security risks. Some of the more common technologies enterprises 
should consider are listed below:

<bullet> Perimeter defenses. Firewall software and devices at the 
    enterprise, network, server, and even host level are becoming 
    standard. These permit a variety of steps to limit access by 
    sender, receiver, domain, function, and data type. Although not the 
    total security solution, these are a necessary portion of the 
    security configuration for business systems, and the first layer in 
    the defense in depth implementation for cyber security.
<bullet> Intrusion Detection. Unauthorized penetration of business 
    information systems must be assumed. Rapid detection is a 
    requirement. Intrusion Detection Systems (IDS) work with sensors 
    which either detect (1) specific activities or processes which have 
    been previously templated as threatening, or (2) departures from 
    previous information system activity and behaviors which have been 
    assessed to fall in the ``normal'' range. New approaches to IDS are 
    beginning to emerge that include combinations of such sensors and 
    detection criteria supported by enhanced data fusion, display, and 
    decision support capabilities. IDS capabilities are improving 
    relative to threat and vulnerabilities, and becoming more 
    widespread.
<bullet> Autonomic Response. Most IT system response to intrusion and 
    anomaly detection is ad hoc. The next area for improvement will be 
    in automated response to penetration, wherein pre-planned reactions 
    are automatically executed to contain, reduce, and eliminate damage 
    and sources of threat. Over time, development work for DoD may 
    provide for commercialized capabilities for adaptive response to 
    penetration. This area of cyber security products is currently very 
    immature but appears promising for the future.
<bullet> Virtual Private Networks (VPN). Virtual Privacy Networks 
    provide secure tunnels between trusted sources connected over paths 
    through less trusted domains by using encryption. This approach is 
    mature now and proving necessary for ensuring privacy for 
    businesses using the internet as part of their extended IT 
    infrastructure. In view of globalization and the rise of 
    collaborative working with international partners, VPN technology 
    is a necessary security component for many businesses.
<bullet> Encryption. Cheap, reliable digital encryption using software 
    has now become available and practical for industry. Software based 
    encryption is susceptible to attack by a state level threat, but is 
    sufficient for all others. Encryption is now required to protect 
    sensitive data in motion (i.e., as it moves through networks and 
    across telecommunications paths) and at rest (i.e., in storage) to 
    ensure integrity and privacy. Encryption is also useful in 
    providing authentication between sender and receiver, and non-
    repudiation services (for accountability).
<bullet> Public Key Infrastructure (PKI). Public Key Infrastructure 
    using asymmetric keys has emerged as the only practical technology 
    to support encryption requirements, such as those above, for 
    numerous, diverse users who are geographically dispersed but 
    functionally connected. In a word, this is globalized, 24/7 
    business today. PKI has been criticized as not being user friendly 
    and scaleable, but outsourced providers can reduce its application 
    to something like a subscriber service for most businesses.
<bullet> Digital Rights Management (DRM). Digital Rights Management 
    technology provides persistent controls of information and 
    intellectual property over time. It can set and enforce rules for 
    sharing, display, editing/modification, usage, and even expiration 
    of storage. Other DRM capabilities will support secure billing and 
    micro-payments, provide auditing and transaction tracking, and 
    permit alteration in the rules as requirements may change. PKI 
    solutions can provide necessary encryption support. DRM is not yet 
    mature but is an emergent technology that can improve the cyber 
    security of business processes in the future.
    I am generally optimistic about the improvements that we see 
developing in cyber security technology and believe these can be 
integrated at reasonable cost in ways that will markedly improve 
protection for individual business IT infrastructures operating in many 
different business risk environments. These technical safeguards, 
combined with proper operating procedures and people with suitable 
training and policy direction, can make business cyber security 
postures quite robust. Unfortunately, it is also clear that cyber 
attack tools are improving steadily in their capability and ease of 
use. We can expect new waves of attack based on widespread internet 
dissemination of vulnerability information, the advent of adaptive of 
``polymorphic'' viruses, improved counter-encryption capabilities, and 
clever attack tactics that evade IDS. These attacks will come from an 
increased number of people globally who are prepared to use cyberspace 
and sophisticated software tolls in malicious ways. This is 
particularly of concern as we realize that in the next year the 
majority of internet content will no longer be in English, and the 
number of aggrieved foreign players with access and attitude rises.
    For the present, the experience SAIC has had as a cyber security 
integrator with numerous industry customers is a bit mixed.

<bullet> Financial sector clients are far ahead of all others in 
    awareness and concerns about cyber security, and in the 
    sophistication of their solutions. They in fact can provide 
    technical and procedural lessons in best practices to the US 
    national security community as well as other parts of the private 
    sector.
<bullet> Many of our other commercial clients approach us when they 
    have had a penetration or other IT infrastructure failure. They 
    want quick fixes, some testing to assure the problem has been 
    resolved, and hesitate on cost grounds to support a longer-term 
    relationship in which their security posture is systematically 
    tested and upgraded.
<bullet> In assessing the sources of penetration, we normally find the 
    attacks are not novel, but in fact are familiar. In the majority of 
    cases, patches have been available, but were not implemented. In 
    other cases cyber security systems were not correctly configured. 
    Those persons responsible for cyber security were overworked, under 
    trained, or poorly supported and resourced by their management.
<bullet> Many commercial clients are still doubtful about the business 
    case for cyber security and typically do not make high demands on 
    software developers of their operating systems and applications to 
    incorporate strong security features.
<bullet> Outside of the financial sector, encryption and PKI are coming 
    more slowly to industry customers than to the Federal government. 
    Government pressures for vendors to use PKI based encryption 
    services in B2G transactions will gradually increase usage 
    patterns. There is some interest in outsourcing cyber security 
    support services and to use managed cyber security service models 
    on a subscriber basis. This is economic, especially for small- and 
    mid-sized firms that are mindful of the cyber security threat, but 
    want to concentrate on their core business competency. 
    Unfortunately, it may take a catastrophic event in cyber space to 
    galvanize business attention fully to cyber security issues and 
    change perceptions about the business case.
    Against this background discussion of growing cyber risks, 
actionable best practices, technology trends, and current business 
realities, there is an important role for the Congress to play to 
encourage improvements in commercial cyber security. For good or ill--
and I believe for good--we live in the information age, and there is no 
turning back. While the ``dot com'' euphoria in the stock market may 
have come to an abrupt end, the underlying march of information and 
information technology has not. We are wedded to the cyber realm for 
our future prosperity in virtually every area. Our challenge is to 
learn how to live and operate in this new domain. It will take time to 
evolve public policies and craft information age laws, but progress is 
being made. In my view, here are some of the things the Congress may 
wish to pursue.

<bullet> Encourage industry to define standards for due diligence in 
    the development and validation of secure software by developers, 
    and its secure implementation and operation by users. In the event 
    these standards were not met they would provide a basis for 
    judicial allocation of liability and compensation. Part of this 
    approach would be to promote security testing of developer's 
    software products according to accepted standards, and to increase 
    emphasis on the integration of proper software configurations with 
    prompt patch updates for operators.
<bullet> Advocate an insurance-based solution to appropriate aspects of 
    the cyber security problem that do not lend themselves to 
    ``ownership''--the ``commons'' problem--and an immediate technology 
    solution. As has been proposed in the aftermath of 9/11 for 
    insurers of physical properties, it might be possible to consider 
    Federal backing if insured losses exceeded a certain total due to 
    cyber attack.
<bullet> Consider tax subsidies or other incentives for improved cyber 
    protections for certain industries or for the mitigation of 
    particular classes of risks. Low margin industries vital to public 
    welfare in food and transportation, for instance, might be 
    beneficiaries of such support for improved cyber security.
<bullet> Support education and training programs for cyber security 
    skills. It does not matter whether graduates of such programs enter 
    government or commercial jobs since their capabilities will benefit 
    business and the nation as a whole. Ideally this would reduce 
    dependence on foreign providers of those skills and services over 
    time.
<bullet> Fund certain highly promising cyber security technologies and 
    approaches that are under development. Those that permit 
    information systems to operate in degraded mode despite intrusion, 
    to self-diagnose, and to heal themselves seem especially valuable 
    and promising. However, these technologies are far from ready for a 
    shrink wrapped solution and will require considerable development 
    over time that industry alone will not pursue.
<bullet> Resist the inclination to legislate specific technical 
    solutions. As in many similar problems, Congress will serve 
    industry and the nation best by promoting an environment and 
    development of the infrastructure of people and technologies 
    required to define, implement, and upgrade efficient cyber security 
    solutions over time. For reasons I discussed earlier, to fix on any 
    single technical approach now in a field so volatile is certain to 
    fail.
    There are bills in various stages of progress in Congress that 
include provisions promoting improvements in business cyber security 
practices and capabilities. HR 2435, ``The Cyber Security Information 
Act,'' and S 1456, ``The Critical Infrastructure Information Security 
Act of 2001,'' each have provisions to protect from FOIA requirements 
and antitrust concerns B2B and B2G sharing of sensitive information for 
alerting and warning of threats to business information 
infrastructures. I commend these provisions for your favorable 
consideration in any legislation that is forthcoming this session.
    To summarize, industry faces a future of increasing and evolving 
threats to its IT infrastructure, Intellectual Property, and other 
critical information. There is every expectation that better technology 
is emerging to improve protections. But, more than technology, people 
at every level of the business enterprise are crucial to achieving 
upgrades to cyber security. To be effective, managers must provide--
first and foremost--competent, executable security policy. That policy 
must be implemented in specific processes and technologies. Cyber 
security must become an integral part of business operations. People at 
the management level need to believe there is a business case for IT 
security and manage accordingly, and employees must receive training 
that maintains both security awareness and competence as a sustaining 
activity in their careers.
    I thank you for requesting SAIC's views on this important matter, 
and I would be pleased to answer any of your questions.

    Mr. Stearns. I thank the gentleman.
    Mr. Schmidt for your opening statement.

                 STATEMENT OF HOWARD A. SCHMIDT

    Mr. Schmidt. Thank you, Mr. Chairman, and the subcommittee. 
I'd also like to request that my full written testimony be 
submitted in the record.
    Mr. Stearns. In the record.
    Mr. Schmidt. Thank you.
    Mr. Chairman, members of the subcommittee, my name is 
Howard Schmidt. I'm the Chief Security Officer of Microsoft 
Corporation. I also have the honor of serving as the President 
of the Information Technology Information Sharing and Analysis 
Center or the IT-ASAC, the Information System Security 
Association or ISSA, and I also serve on the board of the 
Partnership for Critical Infrastructure Security. I'm also an 
industry executive subcommittee representative for the National 
Security Telecommunications Advisory Council.
    I've served in the public sector for over 30 years with the 
United States Air Force, the FBI and local law enforcement. And 
on September 11, I was in Washington, D.C. for a day long 
meeting with several senators when I learned of the attacks.
    As a current military reservist with Army Criminal 
Investigations Computer Crime Investigations Unit, I reported 
to Fort Belvoir, was placed on active military duty for the 
next month and deployed to work for the Joint Task Force for 
Computer Network Operations, working with the Department of 
Justice and the FBI through the NIPC FBI headquarters.
    That particular experience built upon the many years in the 
field have given me the ability to see individuals in both 
communities, both private and public sector, wage daily battles 
in a war without silver bullets or black boxes, where there 
will also be someone trying to exploit vulnerabilities and 
where criminal hackers are proving themselves to be allusive, 
diverse and endlessly resourceful.
    With this background, I would like to review some problems 
we face and address the steps that Microsoft takes as an 
industry leader, and some steps I believe that the government 
should take to address cyber threats.
    The issues posed by criminal hackers are real, cross-
platform and costly. The Love You virus of 200 caused an 
estimated $8 billion in damages. Ramen and Lion worms, which 
attacked Linux software used to deface websites and extra 
sensitive information such as passwords. And the Code Red worm 
exploited Windows server software. Damage has been estimated in 
those cases $2.4 billion. The Rhino attacks exploited 
vulnerabilities in the Solaris operating system to stage denial 
of service attacks. That damage was estimated as $1.2 billion.
    Truly these are genuine weapons of mass disruption, not 
mass destruction, but mass disruption. Yet, perhaps the most 
depressing fact in all of these stated attacks there has been 
no perpetrator that has been caught, absent the incident with 
the I Love You virus writer who remains free since there were 
no laws in this country that criminalize those actions.
    Those attacks did not occur because the innovative 
engineers who created the underlying code disregarded security. 
They occurred because equally innovative criminal hackers 
worked day after day to find, create and exploit 
vulnerabilities in the software or in the human nature that 
gave them new ways to repass on our computers, to steal our 
data and shutdown our networks.
    Microsoft is deeply involved in advancing policies to 
improve critical infrastructure protection through senior 
executive leadership, continuous improvement of software 
development, security response, and coordination with law 
enforcement.
    First of all, we lead from the top. Bill Gates, our Chief 
Software Architect and Chairman, is a Presidentially appointed 
member of the National Infrastructure Advisory Council. Craig 
Mundie, our Senior Vice President and Chief Technology Officer 
was appointed by the President to the National Security 
Telecommunications Advisory Council. And on a personal basis, I 
am deeply involved with the U.S. Government's efforts around 
critical infrastructure protection, the G8 Subcommittee on 
Cyber Crime, various United Nations initiatives and including I 
was a U.S. Industry Delegate in the U.S. Australian bilateral 
meetings on critical infrastructure protection.
    Allow me to mention for a moment some of the things we have 
done in the direction of our executives. We've created a new 
program to deal with the patch applications that was cited by 
my colleagues as one of the issues that faces us in the 
vulnerability issue.
    We're also developing superior code analysis processes to 
root out subtle flaws that can create vulnerabilities in 
commercial products.
    We're expanding the testing of our software by using 
independent penetration teams and working closely with third 
party experts in and outside the government to make these tests 
work.
    In addition, we've created a fully staffed highly effective 
security response organization which we believe is one of the 
best in the industry.
    Like traditional crimes, cyber crime needs to be opposed 
with strict criminal laws, strong enforcement capabilities and 
well-equipped and highly trained law enforces. Yet despite the 
billions of dollars in damage that we've seen in these network 
disruptions in the past, writers still remain at large. In this 
troubled time, we can only expect that some of these may fall 
under the control of terrorist organizations or hostile 
nations, and thus we need to address the inadequate enforcement 
of criminal laws and insufficient law enforcement resources.
    Law enforcers should receive additional resources, 
personnel, and equipment in order to investigate and prosecute 
cyber crimes. These hard working officials are often short-
staffed and under-funded. Many also lack the state-of-the-art 
technology used by hackers, and increased funding is needed to 
place them on par with those they investigate.
    We support the following specific actions. We see a need 
for increased funding for law enforcement personnel training 
and equipment.
    We support tougher penalties on criminal hackers such as 
civil forfeiture of personal property used in committing these 
crimes.
    We seek clear guidance from the Sentencing Commission on 
how courts should punish those convicted felons.
    We strongly support greater international cooperation among 
law enforcers in these times-sensitive investigations.
    And we want to have the ability to have ISPs to have the 
authority to share information voluntarily with the entire 
government once they see that life or limb is endangered.
    We've worked very closely with the authors of the pending 
Freedom of Information Act reform legislation, and when 
President Bush signaled his support of this reform, and as 
President of the IT-ISAC, and I assure you that this simple 
change could lead many companies to answer the government's 
request to do more in sharing of security information with the 
government.
    From the international perspective, we need international 
laws enforcement framework that establishes minimum liability 
and penalty rules for cyber crime, and common intergovernmental 
cooperation. Without all this, the computer laws on the laws on 
the books may wind up being useless when cyber criminals cross 
international borders.
    Let me close by thanking this subcommittee for inviting me 
to testify. The recent horrific terrorist attacks in New York 
and Washington were physical in nature. And we were fortunate 
that terrorists or a random hacker did not further create 
mayhem by unleashing a corresponding cyber attack, yet this is 
a risk that we still continue to face. We must take steps now 
to deter these actions to improve technology: Fully funded law 
enforcement; tough criminal penalties and continued industry 
and government dialog and cooperation.
    We know that security is a journey, not a destination, and 
by working with our industry peers including some of my 
distinguished colleagues here, and with the government, we have 
a chance to keep pace and hopefully get ahead with the cyber 
criminals and cyber terrorists.
    Thank you, and I'll be happy to take questions.
    [The prepared statement of Howard A. Schmidt follows:]

   Prepared Statement of Howard A. Schmidt, Chief Security Officer, 
                         Microsoft Corporation

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, my name is Howard 
Schmidt. I am the Chief Security Officer at the Microsoft Corporation. 
As such, I am one of many who are responsible for the development of a 
trusted computing environment at Microsoft and, to the extent possible, 
throughout the information technology industry. I serve as president of 
the Information Technology Information Sharing and Analysis Center (IT-
ASAC), which coordinates information sharing on cyber vulnerabilities 
among information technology companies and the U.S. government. I serve 
on the board of the Partnership for Critical Infrastructure Security, a 
cross-sector, cross-industry effort supported by the National Security 
Council and the Department of Commerce. I am also an industry executive 
subcommittee member of the National Security Telecommunications 
Advisory Committee. I served for several years in the United States Air 
Force, the FBI, and local law enforcement, and on September 11th I 
arrived in Washington, D.C. for one stop among many that would take me 
across the globe. I was meeting that morning with several Senators when 
I learned of the attacks, and I immediately reported for duty at the 
Pentagon. There I stayed for the next several weeks after being called 
to active duty with the United States Army. During that time I was 
deployed simultaneously to the Joint Task Force for Computer Network 
Operations, the Department of Justice, and the FBI's National 
Infrastructure Protection Center.
    That experience built upon my many years of computer security work 
in the public and private sectors, in which I have observed extremely 
talented and committed individuals in both communities wage daily 
battles in a war without silver bullets, where there will always be 
some vulnerabilities, and where the criminal hacker has proven itself 
elusive, diverse, and endlessly resourceful.
    With this background, I would like to review some problems we face 
and address two elements of cyber-security. First, the steps Microsoft 
takes as an industry leader, and second, some steps I believe the 
government should take to stop cyber-crime.

                              THE PROBLEM

    Mr. Chairman, the information technology revolution has transformed 
the way business is transacted, government operates, and national 
defense is conducted. Those functions depend on an interdependent 
network of physical and technological critical information 
infrastructures that industry and government work together constantly 
to secure. Protection of these systems is essential to government and 
to the telecommunications, energy, financial services, manufacturing, 
water, transportation, health care, information technology and 
emergency services sectors--the so-called critical infrastructures of 
our economy.
    These sectors are national assets. Their loss or degradation would 
severely impact our national defense and the very stability of our 
economy. Yet, unlike other national defense assets, they were largely 
built, and are owned and operated, by the private sector. That is why 
this Administration and its predecessor have insisted that securing 
critical infrastructures requires a partnership between government and 
industry. Voluntary cooperation and industry-led initiatives will work 
best to address computer security issues.
    The issues posed by criminal hackers are real, cross-platform, and 
costly. The ``ILOVEYOU'' virus of 2000 caused an estimated $8 billion 
in damages. The Ramen and Lion worms attacked Linux software to deface 
websites and extract sensitive information such as passwords. The Code 
Red worm exploited Windows server software to deface websites, infect 
computers, attack other websites, and make computers susceptible to 
attack by third parties. Damage has been estimated at $2.4 billion. The 
Trinoo attacks exploited vulnerabilities in the Solaris operating 
system to stage distributed denial of service attacks against several 
prominent websites. The damage was $1.2 billion.
    Truly, these are genuine ``weapons of mass disruption.'' Yet, 
perhaps the most depressing fact in all of these attacks is that no 
perpetrator has been caught with one exception--the ``ILOVEYOU'' virus 
writer remains free since the law of his country did not criminalize 
his actions.
    These attacks did not occur because the extremely innovative 
engineers creating the underlying codes disregarded security. They 
occurred because equally innovative criminal hackers worked day after 
day to find, create and exploit vulnerabilities in the software or in 
human nature that gave them new ways to trespass on your computers, 
steal your data and shut down your networks.
          elements of a solution: microsoft and cybersecurity
    Leadership. We at Microsoft are deeply involved at the national 
level and within the information technology sector in advancing 
policies to improve critical infrastructure protection. This takes form 
through senior executive leadership, continuous improvement in software 
development, security response, and coordination with law enforcement.
    First of all, we lead from the top. Bill Gates, our Chairman and 
Chief Software Architect, is a presidentially-appointed member of the 
National Infrastructure Assurance Council (NIAC). The NIAC is intended 
to advise the President and encourage cooperation between the public 
and private sectors to address physical threats and cyber threats to 
the Nation's critical infrastructure.
    Craig Mundie, Microsoft's Senior Vice President and Chief Technical 
Officer for Advanced Strategies and Policy, was appointed by the 
President to the National Security Telecommunications Advisory Council 
(NSTAC). The NSTAC advises the President on policy and technical issues 
associated with telecommunications.
    Steve Lipner, Microsoft's Lead Program Manager for Security, serves 
on the Congressionally-mandated Computer Systems Security and Privacy 
Advisory Board.
    Finally, I am deeply involved in U.S. government, G8, United 
Nations and state & local cyber-security initiatives. In addition to my 
duties at the IT-ISAC and NSTAC, I recently participated in a U.S.-
Australia bilateral meeting on critical infrastructure protection led 
by the U.S. Departments of State and Commerce.
    From the top down, our senior executives believe in excellent 
security. They drive our thinking on what we need to do to create a 
more secure Internet infrastructure, and they simultaneously play a 
leading role in shaping the general U.S. technological and policy 
environment.
    Service & Development. Allow me to mention several examples of what 
we have done at their direction. About four weeks ago, we rolled out 
the Strategic Technology Protection Program (STPP) which addresses the 
patch application problems while also enhancing our software 
development practices.
    As part of this initiative, we are doing several things, including 
deploying many of our personnel to our customers' sites to assist them 
in utilizing our patches. We also are providing advanced training to 
our own developers so they better understand current threats and 
vulnerabilities; we are developing superior code analysis tools to root 
out subtle flaws that can create vulnerabilities; we are expanding 
testing of our software by using independent penetration teams; and we 
are working closely with third party experts in and outside government.
    In addition to the STPP, we have created a fully staffed, highly 
effective security response organization. We believe that it is the 
industry's best such organization. It investigates thoroughly all 
reported vulnerabilities, then builds and disseminates any needed 
security updates. In 2000, for instance, we received and investigated 
over 10,000 reports from our customers. Where we found 
vulnerabilities--as we did in 100 cases--we delivered updated software 
through well publicized web sites and our free mailing list to 200,000 
subscribers.
    Another major element of our protection efforts focuses on 
incorporating new security features in our products. As examples, we 
have integrated previous stand-alone patches in products like Outlook 
2001, installed a personal firewall in Windows XP, and added software 
restriction policies to Windows XP to allow administrators to limit 
what software can run on the system.
    The feedback we have received thus far from our customers, outside 
analysts and the press has been overwhelmingly positive. We consider 
that an essential vote of confidence in the direction we have taken, 
and these programs are not one-time initiatives. We take them very 
seriously, for security and privacy go to the heart of our culture.
    Education. Leading by example is one way to improve computer 
security. Making sure that it becomes a national ethic for business and 
government, however, requires serious, sustained efforts to educate our 
colleagues in both the public and private sector.
    Like any real solution to reducing computer security 
vulnerabilities, this requires that both sectors play a part. On the 
industry side, we strongly support industry-generated efforts to spread 
the gospel of cyber security. At Microsoft, we have done this through 
the good works of our top executives and through other broad-based 
efforts to encourage appropriate security practices. For instance, at 
an industry-wide level, Microsoft this month sponsored its second 
annual Trusted Computing conference at our Silicon Valley Campus. This 
conference brought together leaders from industry, government, the 
academic community and other interested parties to discuss and reach 
consensus on issues of security and privacy. One of the highlights of 
this year's event has been a debate about the handling of product 
vulnerability information. With several other companies, we have taken 
a leadership position that the public release of ``exploit code'' by 
``security researchers''--that subsequently can be used by hackers to 
break into customers' systems--is harmful to customers and inconsistent 
with professional responsibility. We believe that similar efforts to 
reach consensus within the industry can improve both security awareness 
and lead to real security improvements.
    On the government side, I admire and support the job Dick Clarke is 
doing as the President's cyber security advisor and coordinator. He has 
worked tirelessly for years to bring the message of computer 
vulnerability and the need for increased computer security to the 
nation's boardrooms and cabinet offices. He needs support throughout 
the government in making clear that this is a national priority. 
Certainly this message has reached the Department of Defense, which so 
heavily relies on information technology to gain battlefield 
superiority. It must become part of the lexicon of many other 
government agencies and officials.
    Criminal Enforcement. Like traditional crime, cyber-crime needs to 
be opposed with strict criminal laws, strong enforcement capabilities, 
and well-equipped and highly trained law enforcers. Yet despite the 
billions in damage and significant network disruption, many criminal 
code writers remain at large. In this troubled time, we can expect that 
some may fall under the control of terrorist organizations and hostile 
nations, and thus we need to address the inadequate enforcement of 
criminal laws and insufficient law enforcement resources.
    To slow this growing threat, penalties for cyber-crime should be 
increased and law enforcement capabilities should be enhanced. The 
Computer Fraud and Abuse Act and other statutes make hacking, 
unauthorized access to computers, and the theft, alteration, or 
destruction of data federal crimes. However, penalties are weakly 
enforced, and tougher sentences need to be imposed to deter and punish 
cyber criminals.
    Law enforcement should receive additional resources, personnel, and 
equipment in order to investigate and prosecute cyber-crimes. These 
hard working officials are often short-staffed and under-funded. Many 
also lack the state-of-the-art technology used by hackers, and 
increased funding is needed to place them on par with those they 
investigate.
    Finally, cyber-criminals and cyber-terrorists operate across 
international borders, as in the ``ILOVEYOU'' virus, the ``Solar 
Sunrise'' attack, and the ``Anna Kournikova'' virus. Enhanced 
international law enforcement cooperation is a vital tool our law 
enforcers need to fight and find the cyber criminals and cyber-
terrorists.
    That's why Microsoft strongly supports adding new cyber-crime 
provisions to the anti-terrorism laws and the criminal code. We see a 
need for increased funding for law enforcement personnel, training, and 
equipment. We support tougher penalties on criminal hackers, such as 
civil forfeiture of personal property used in committing these crimes, 
and we seek clear guidance from the Sentencing Commission on how courts 
should punish these convicted felons. We strongly support greater 
international cooperation among law enforcers in these time-sensitive 
investigations. And we want ISPs to have the authority to share 
information voluntarily with the entire government once they see that 
life or limb are endangered.
    We have also worked closely with the authors of the pending 
legislation to provide an exemption from the Freedom of Information Act 
(FOIA) for cyber security information voluntarily shared with the 
federal government. In a letter to the NSTAC, President Bush signaled 
his support for this reform and as President of the IT-ISAC, I can 
assure you that this simple change will lead many companies to answer 
the government's urging that they provide much more computer security 
data to the government. When that happens, the government network 
administrators will learn much more about network vulnerabilities from 
the private sector and be in a far better position to secure their own 
networks. They will also be able to model future attacks and position 
themselves to anticipate them in advance, whereas today most analysis 
occurs after the attack.
    Finally, the Council of Europe has completed negotiations on a 
comprehensive cyber-crime treaty. We know that from an ISP perspective 
it contains a number of controversial or vague requirements affecting 
both privacy and regular business practices. We share many of these 
concerns and worked in several industry coalitions to ameliorate them. 
Yet we see the clear need for an international law enforcement 
framework that establishes minimum liability and penalty rules for 
cyber-crime, and common procedures for intergovernmental cooperation. 
Without this, all the computer crime laws on the books are useless when 
cyber-criminals cross international borders. Whether or not the Council 
of Europe treaty is an ideal vehicle I leave to the lawyers to decide, 
but I assure you that we do need harmonization and cooperation in this 
area, and we need it now.
    Investment. Microsoft believes that there is a demonstrated need to 
protect and defend the nation's critical information infrastructures 
from computer hackers and cyber-terrorists. Law enforcement must be 
adequately trained and properly equipped to fight cyber-crime, whether 
it is hacking, or other forms of cyber-security offenses, committed by 
terrorists and other criminal entities. That is why we propose giving 
the Attorney General additional discretionary funds to expand staffing, 
training and technological capabilities of the Computer Crime and 
Intellectual Property Section and the National Infrastructure 
Protection Center; to accelerate funding for law enforcement computer 
modernization; to hire experts in cyber-security; and to fund state and 
local law enforcement efforts to deter, investigate and prosecute 
cyber-security offenses.
    Government Response. Software security is a rapidly evolving market 
of suppliers and consumers. We have seen over the past few years 
tremendous growth and a massive increase in awareness of these issues. 
There is no single nor comprehensive solution and there will always be 
more to do. For this reason, I believe we need to let the Internet 
economy and the information technology industry operate as a market. 
That means that it must operate without government interference.
    Federal security mandates or requirements, such as rules and 
regulations for patch application, dictates on the type of technology a 
company must use, or legal requirements that a company declare that it 
follows some form of security best practices, would have the perverse 
effect of slowing innovation in the security market. A rule requiring 
notice of security practices would also have the unintended consequence 
of causing companies to gravitate toward accepted practices rather than 
toward innovative practices. In sum, there is a critical difference in 
quality, innovation and thoroughness between security solutions driven 
by market and private sector pressures and those driven by regulation, 
bureaucratic timetables and one-size-fits-all approaches. A serious 
government-industry partnership can encourage security innovation and 
implementations, but will falter if regulation is imposed upon 
information technology businesses.

                                SUMMARY

    Let me close by thanking the Subcommittee for inviting me to 
testify. Although the recent horrific terrorist attacks in New York and 
Washington were physical in nature, Congress quite rightly must look 
beyond the current tragedy and loss of those catastrophic attacks. We 
were fortunate that the terrorists or a random hacker did not unleash a 
corresponding cyber attack. Yet that is a risk we face, and we must 
take steps now to deter these actions through improved technology, 
fully funded cyber crime law enforcement, tough criminal penalties, and 
continued industry & government cooperation. We know that there is no 
finish line to these efforts, but by working as we have with industry 
peers--including some of these panelists--and with governments, we have 
a chance to keep one step ahead of cyber-criminals and cyber-
terrorists.
    Thank you.

    Mr. Stearns. Thank you, Mr. Schmidt.
    The committee that I'm chairing now is using the 
jurisdiction of Commerce to have you here. Some of the things 
you mentioned, Mr. Schmidt, would most likely be under the 
Judiciary Committee in terms of the laws that are developed.
    But, Mr. Klaus, let me just ask you, I have lots of friends 
in my congressional district that are banking Bank of America, 
other banks. They do all their banking through the Internet.
    Are you saying today that you could go into those programs 
and find out what their banking information is? Could I bring 
you down to Okal, you sit down at a computer or could I tell 
you where they are? I mean, tell me how would you--first of 
all, is it possible for you, is it possible for a hacker today 
to go in and find out all the information in my friend's 
banking account with Bank of America?
    Mr. Klaus. There's actually a pretty big misperception out 
there where people think that if I don't shop on the line or I 
don't access my bank account on line, I'm okay. I'm not 
effected by this. But the reality is when we go into a bank or 
do what we call a penetration test, we don't have to physically 
go anywhere, we could just do it from anywhere on the Internet 
and typically you can get into a bank. And from there you can 
access not only the people who do access their accounts on 
line, but even those that are off line in terms of 
everybody's--everybody's account information is in the data 
base.
    Mr. Stearns. Okay. That's why we've always made the 
agreement on this committee that if we do an Internet privacy, 
it's off line/online, because just what you said; that you 
could go in to find something and a person never gave a credit 
card, never went on banking online, but dealt with a bank 
offline and paid the mortgage, you could break in today you're 
saying and do that?
    Mr. Klaus. I mean, the banks use the same computer systems, 
the same data bases to store the information whether the user's 
online or not.
    Mr. Stearns. Okay. What's the motivation in your opinion of 
these people who do this? Is it for crime, is it just for 
challenge, or what is the majority of the motivation?
    Mr. Klaus. I think the motivation it's probably a bigger 
different group that's out there today. Like 5 years ago or 10 
years ago if you looked at it, a lot of people who were doing 
it was more for play and exploratory type hacking, is kind of 
the term they were using in terms of ``I'll see what I can get 
into.''
    Mr. Stearns. Sort of as a game.
    Mr. Klaus. More as a game. But nowadays we're seeing a lot 
more attacks that are actually criminal in nature, either 
political motivation or actually money--you know, money is on 
the Internet now, so a lot more of monetary attacks. Blackmail 
a lot of times.
    We were dealing with a bank in Georgia where they had been 
hacked into and basically the data base of all their customers 
had been taken back to someplace in Russia and, basically that 
group had emailed the bank saying, you know, please give me 
$100,000 otherwise we could be releasing this information, 
might get out on the Internet.
    Mr. Stearns. So they tried to blackmail the bank?
    Mr. Klaus. Correct. And so we're seeing the motivation is 
changing.
    I think the automated attack tools, the motivation there 
today nobody--since those people haven't been caught, it's hard 
to question exactly what they're doing. But in many cases if 
you look at virus writers, it's kind of like so many arsonists 
out there. You set a fire and you go off and kind of watch it 
from afar. And I think that's what a lot of the automated 
attack pools like Nimba, Code Red, some of that motivation 
might be.
    Hey, let's write a program to see how much of a fire can I 
create on the Internet, and kind of watch it from a distance.
    Mr. Stearns. Ms. Davidson, you state that ``If security is 
not built into a product system from the getgo, it is often 
impossible to retrofit it after the fact.'' You might just 
elaborate on that.
    Ms. Davidson. Well, I think it's important that security 
has to be part of a design process. And a vendor of a secure 
product has to make a commitment to a secure product lifecycle.
    For example, before you build a piece of software, you need 
to sit down and say what are the security threats I'm 
protecting against? What are the technical measures I'm going 
to implement?
    Mr. Stearns. Can you project that with this technological 
advancement, this innovation we're seeing in America? Can you 
be sure?
    Ms. Davidson. I don't think you can ever be 100 percent 
sure and there is no bullet proof security. But it basically 
gets back to, I talk to my customers about the questions you 
ought to be asking all of your vendors about security. And that 
is, how do you build security? Is it part of the design 
process? Is that one of the first things you think of? Do you 
have secure coding practices? do you have a small group of 
people? Because it's hard to get security right.
    You have a small group of people who are the experts to 
whom the rest of your company goes to make sure I'm building a 
piece of software, I need to make sure the security people; I 
talk to them, I use the code routines that are well formed and 
well delivered, I have testing to test the security mechanisms, 
I do security risk assessments or penetration tests, try to 
break into it.
    Mr. Stearns. Yes.
    Ms. Davidson. We have a team of reputable hackers whose 
very good that's breaking into things before the product goes 
out the door.
    Mr. Klaus. I'd like to add----
    Mr. Stearns. Let me just finish here.
    Mr. Schmidt, you've just heard what Ms. Davidson said. Some 
people have criticized Microsoft plan to work to publicize 
security flaws, but not the technical details. So there's some 
controversy here, because people like to know the technical 
details. You might give us why Microsoft proposed the action it 
did.
    Mr. Schmidt. Well, it goes around what we call ethical 
reporting. There is the concern that if information comes out 
before there's a fix, then we endanger the entire critical 
infrastructure that we're talking about on a regular basis to 
begin with. So when we talk about publishing details, it's 
after we have the ability as an industry to resolve these 
problems, that you get the patches out there, and then make 
that information known on a very technical basis. In the 
interim we're subject to saying there's a big hole, but there's 
no way to fix it at this point.
    Mr. Stearns. My last question is to Mr. McCurdy, would an 
exemption from the Freedom of Information Act and/or any trust 
laws help promote a better interaction and cooperation between 
the government and private sector on cyber security matters?
    Mr. McCurdy. Mr. Chairman, yes. I'm a firm supporter, as 
our organization is, for both the Davis-Moran legislation from 
the House and also the Bennett legislation in the Senate. We'd 
like to see both of those tabled so we could go to conference 
on that.
    One for information sharing and--what we don't know is 
probably a bigger question. I know it philosophical. But when 
you talk about the motivation of hackers, in a lot of ways they 
want to have those attacks publicized, but it's the criminal 
elements, it's organized crime, it's the state actors that 
quite frankly don't want you to know. And they're not using the 
automated tools. they can do a number of things both externally 
but also through insiders. As we know, the FBI knows a lot 
about the potential threat from insiders.
    So there are a number of things, and I think you have to 
remember that used to use in national security the threat over 
here and the likelihood of occurrence, but the lesser threat on 
the other side. Those areas where there's the greatest threat 
you won't hear a lot about. And that's why, you know, I think 
there has to be a lot of effort from the government.
    With regard to information sharing, banks have their own 
incentive to report a certain level of intrusion and loses. 
they don't want to lose confidence with the consumer or 
customers. So it's also critical that in order to exchange 
information with the government, that those reports remain 
anonymous, that they not be traced back to individuals or to 
companies. Because that has a chilling effect on the reporting.
    And as far anti-trust, whenever you bring companies 
together--you know, government tends to think in vertical silos 
the way it's organized. The Internet cuts all through that, so 
it goes across industries. It's not just a group of people from 
one industry sitting in the same room together. It's a 
process----
    Mr. Stearns. I'm going to ask you please to summarize this, 
because we're going to go back--I'd like to get the rest of the 
committee.
    Mr. McCurdy. The point is that anti-trust exemption for 
this similar to the Y2K experience and informing sharing 
exemptions are important and I think it should be supported in 
a bipartisan basis.
    Mr. Stearns. Okay. Thank you.
    Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman.
    Following up on the chairman's question, Mr. McCurdy, I'm 
wondering if there have been any prosecutions for anti-trust 
violation as a result of information sharing, or if you're 
concern is really one of a chilling effect?
    Mr. McCurdy. It's more the chilling effect. Similar to Y2K. 
Once----
    Ms. DeGette. Yes, I got you. I don't have much time, as you 
know better than anyone here.
    Is anyone else on the panel aware of any anti-trust 
prosecutions as a result of information sharing? So what I'm 
really hearing is we're talking about a chilling effect that 
could be very real for folks? Just for the record, everyone's 
nodding their head affirmatively.
    I was struck, a couple of a you talked about, including Ms. 
Davidson, about how important it is for consumers to understand 
exactly what the issues are because you can't complain if you 
don't action. And I told the chairman my husband installed 
protection software on our home PC. And we found that even on 
the first day we had scores of attempts to break into our PC. 
And I would be willing to bet--and he was surprised to hear it. 
I shouldn't tell tales on him. But he was surprised to hear 
that and asked me for the name of the software, which I'll get 
him. But if we don't even know that on the subcommittee, 
imagine how many millions of customers there are out there, and 
that's not even at a business level. So I think that's advice 
well taken.
    I would like to ask a question of any member of the panel 
who would care to answer it. If you know of any or if you've 
learned of any particularly vulnerabilities in security systems 
since September 11 or if there are really ongoing concerns that 
we have and that we've been talking about for quite some time 
in this subcommittee? Any new vulnerabilities that we learn of?
    Mr. McCurdy. Well, I'll give you a quick site. You can go 
to a website, and they report continuing vulnerabilities. 
There's a lot that's--again, because of the technical concerns 
that Mr. Schmidt raised, you don't want to give out before 
there's a patch, but there are reports.
    Since September 11 there has not been a huge rush of new 
ones. We're not talking about a post-9/11 scenario here. This 
is a continuing throughout the year threat the past 4 years, 
which I think the trend that you're concerned about.
    Ms. DeGette. Mr. Axelrod?
    Mr. Axelrod. The status of the vulnerabilities is not 
really a function of the threats.
    Ms. DeGette. Right.
    Mr. Axelrod. The vulnerabilities increase as new software 
which is more complex comes into the marketplace. However, I do 
believe that everyone's perceptions of threats has changed 
dramatically. And I also think the reality of the threats has 
changed. There is a whole portfolio of additional threats that 
we didn't previously consider.
    Ms. DeGette. Thank you.
    Mr. Klaus?
    Mr. Klaus. I'd add that, well, we've found at least three 
new vulnerabilities since September 11. A couple of them were 
like multi-vendor effected. Most of the UNIX platforms, Sun, 
Linex, etcetera and worked with a lot of the vendors out there 
that fixes issues.
    The thing is, we're working with Microsoft and seven other 
security companies to create a standard. Right now there's a 
lack of a lot of security standards for whatever reasons, but 
right now there's not a standard out there for how to disclose 
that information.
    ISS has come up with a standard that says, you know, we 
will alert the vendors before we disclose any technical 
details. and a lot of the debate is whether you release the 
actual exploit tools. There's a lot of security companies that 
will produce an exploit tool and say, hey, here's evidence that 
this is a big issue. The problem is you can take that tool and 
break into systems.
    Even worse though is when you disclose I guess the source 
code to the actual vulnerability and how to break into systems. 
What we're finding is it lowers the barrier to creating the 
next Code Red worm or the next worm. And that has the huge 
effect. That's what scares me is the fact that, you know, new 
vulnerabilities get amplified and they're a force multiplier in 
terms of having a huge effect on the Internet.
    Ms. DeGette. I got you. Thank you.
    I'd like to question of Mr. Schmidt. A couple of the 
excellent suggestions I thought that you made were increasing 
penalties for hackers. We apparently have hackers out there who 
haven't been prosecuted.
    I'm wondering how many of the hackers that you are 
experiencing in your company and maybe Oracle and others have 
we determined are based domestically here?
    Mr. Schmidt. Yes, it's really difficult to tell until you 
actually put the habeas grabis on them, as we call it.
    Ms. DeGette. Right.
    Mr. Schmidt. Because they're often times----
    Ms. DeGette. That's a term of art, right?
    Mr. Schmidt. Because what happens, we see systems that are 
compromised in foreign countries which may give the indication 
that the source is indeed that country, but it could indeed be 
someone domestically that's using that as a jumping off point.
    Ms. DeGette. So in essence we don't really have a clear 
sense of how many of the hackers are based here where we could 
send in the FBI to get a more local law enforcement authorities 
and how many are based physically internationally, which would 
argue for even stronger international cooperation?
    Mr. Schmidt. That's correct. Yes, ma'am.
    Ms. DeGette. Yes, Ms. Davidson?
    Ms. Davidson. Yes, I'd like to amplify an earlier comment. 
In our experience most of the hackers, although that tends to 
have a pejorative connotation, in our experience most of--I 
would say 98 percent of the people that we deal with are 
inquisitive, talented and, as I mentioned, really want to test 
something rights on the Internet. Looky, see, I was the first 
one to find this vulnerability. They are not malicious. They 
bring the issues to our attention. They give us a chance to fix 
them. And we're very good about acknowledging thank you. In 
fact, I think some of us know the same people, is it Yorgi in 
Russia whose very good at finding buffer overflows.
    So as long as you put a little statement with an 
acknowledgement to Mr. So-and-so who found this and worked with 
us to help identify it, they're happy.
    Mr. Schmidt. Yorgi.
    Ms. Davidson. Yes, Yorgi. Everybody knows Yorgi.
    Ms. DeGette. Unfortunately everybody does not have those 
kind of----
    Ms. Davidson. Yes, that's true. But most of them--so in 
many cases they do self identify and they're very well known. 
It's the 2 percent who are malicious that you never know they 
are.
    Ms. DeGette. Right.
    Thank you, Mr. Chairman.
    Mr. Stearns. Thank you.
    The gentleman from Illinois.
    Mr. Shimkus. Yorgi, alias Nathan Deal. You didn't know 
that, did you?
    Mr. Morrow. I didn't.
    Thank you. I'd like to follow up on a couple of questions 
of Mr. Morrow.
    Mr. Morrow. Sure.
    Mr. Shimkus. And since the Davis-Moran bill was mentioned, 
I know in your testimony you mentioned it also. I want to know 
if it's a good idea that there be an obligation to share 
information?
    Mr. Morrow. We don't really believe--I don't believe it's a 
good idea to have the obligation, because I don't necessarily 
believe it's required.
    I think everybody that I run into in the commercial sector 
wants to do the right thing. They're extremely cognizant of the 
idea that we all have to share information. They are, quite 
frankly, not to be dogging the attorneys in the room, the 
corporate counsel always advise against it because of the 
issues of anti-trust and the Freedom of Information Act.
    You have to understand that even in the investigative 
world--Howard and I were investigators together for the Air 
Force. We would find that companies will forego investigation 
because they don't want to see the information that they are 
trying to keep sacred, their intellectual property, for 
example, brought out in open court and read about it on the 
front page of the Washington Post. And similarly, they're 
afraid of the Freedom of Information Act will do essentially 
the same thing, or the anti-trust implications will be kicked 
in.
    While it has not been that I'm aware of ever been a 
prosecution of anti-trust based on this type of sharing, it's 
certainly one of the things that a corporate counsel always 
seems to be worried about.
    Mr. Shimkus. Great. Thank you.
    And I'm going to shift all over to different things based 
upon the testimony.
    Mr. Casciano, you had also addressed in your statements 
about the applicability of insurance and how insurance may 
shift risk and help address liability issues. Can you take us 
through how this would work, just briefly talk us through that 
whole insurance?
    Mr. Casciano. Certainly. There are many ways that this can 
be done, and the insurance companies and the underwriters are 
trying to grapple with this now.
    One possibility is that companies who are going after cyber 
insurance would be subject to a very standard and rigorous 
examination; vulnerability assessment, assessment of policy, 
implementation of that policy, testing of that policy and then 
would receive a rating from the underwriters based on their 
adherence to the standards set by the insurance company.
    Mr. Shimkus. Is there in the proposal a reevaluation of 
their proposal at 6 months because of how things move so 
rapidly?
    Mr. Casciano. Oh, clearly. And that would be part of the 
standards that would be applied, whether it be a 3-month 
revisit, 6 month revisit or some other formula. But it would 
have to be continuous, because the technology both for defense 
and for offense are changing every day, literally.
    Mr. Shimkus. Do you think companies that may offer this 
might hire your EDA to try to prove them wrong.
    Mr. Casciano. Or companies that hire Yorgi. The ethical 
hacker.
    Mr. Shimkus. Right.
    Mr. Casciano. The ethical hacker. And several of the 
companies that are represented here have stables of ethical 
hackers that do this on behalf of clients.
    Mr. Shimkus. Great. Thanks.
    And I want to go to Mr. Doll for my last question. The 
newly created Critical Infrastructure Protection Board, do you 
think this should be codified? In other words, put into 
statute?
    Mr. Doll. I think the protection board is a positive step 
forward to get a partnership with private industry and public. 
And I think we're positive that it's a step in the right 
direction, that we need to share information and to move those 
things forward.
    Now, what happens next and how that would play out, I don't 
think I'm in a position to say how that really effects future 
decisionmaking. so I think that we're cautiously optimistic 
right now.
    Mr. Shimkus. You know, we're legislators here, so our 
question is always does the Executive Office suffice for now or 
do we need legislation to codify it? It's evolutionary right 
now. And I would recommend that if you--it's no different than 
what we're doing in these other issues of bioterrorism of 
homeland defense. As we move forward, if there's a time to 
codify, then please come back.
    Did you want to add, Mr. McCurdy?
    Mr. McCurdy. Well, to me a follow up. Yes, I think we're in 
an assessment period of time. The events of 9/11 have changed 
how corporations are responding to this. We work with many of 
the Fortune 500 and now board level responses are coming to 
this. And I think we need to assess and then act aggressively 
once we formulate some policy.
    Mr. Doll. I would urge the committee and the Congress to be 
careful about mandates with regard--and getting in the business 
of architecting some kind of structure here. Because as soon as 
you do, then the problem changes.
    One of the challenges we in America face, and certainly you 
as representing the government, is that the government is not 
organized today and has become too stovepiped and too rigid. 
And I think Mr. Ridge and others are finding the challenge of 
that.
    So I would think that the best model were to be the 
voluntary model that was used during Y2K and look at some of 
the specific legislative efforts to improve the information 
sharing.
    Mr. Shimkus. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Stearns. I thank the gentleman.
    Mr. Deal?
    Mr. Deal. Thank you, Mr. Chairman.
    We've been made aware over the last several weeks that some 
of the same things you're alluding to exist in other areas of 
government. For example, we are told that FERC, OSHA, other 
Federal agencies require those over whom they have certain 
jurisdictional controls to divulge to them the worst case 
scenarios. In other words, where are your power plants most 
vulnerable and how? Where are you pipelines most susceptible to 
being bombed or interrupted.
    And by virtue of the government agencies requiring this 
information, it likewise under the Freedom of Information Act, 
then becomes available to whoever might want to know what the 
worst case scenario is and they don't even have to do their own 
homework, the agency has been forced by the government to do it 
for them.
    Now when we talk about the Internet we, for most purposes, 
kept our hands off of it pretty well. So I don't see it from 
that angle, but is it the fact that many of your clients are 
regulated by existing Federal agencies such as the banking 
industry is regulated, and therefore if they disclose 
information it then becomes available as to either problems 
that have existed or potentially do exist? Is that same kind of 
scenario that you are seeing playing out, and if so would 
somebody elaborate on what it is? Because you mentioned the 
Freedom of Information Act. I can see it from the standpoint of 
once you disclose a vulnerability. But are there mandatory 
requirements in place that require those disclosures or can you 
as Mr. Morrow said, just maybe simply keep your mouth shut and 
thereby avoid it? What is that?
    Mr. McCurdy. Well, first of all, Mr. Deal, some of those 
other agencies, FERC and others, are in heavily regulated 
industries including telecommunications. Again, that's a 
sectorized approach. The Internet cuts through that vertical 
and that stovepiped organization. Eight-five percent or even 
greater of the Internet's none government. It's publicly owned. 
And it's hard to impose some kind of regulation or mandate on 
them.
    Grimm-Leach-Bliley was an important tool for the financial 
industry, but that's--and it's a good standard, but it's not a 
standard that should be applied all the way across. Eighty 
percent of the problems of the Internet are common to all 
industry, whether it's insurance, whether it's the utilities, 
you know, entertainment industry. That's where we think that by 
improving the information sharing, by having these horizonal 
nonprofit private organizations as opposed to government, you 
will get the greatest flow of information that improves best 
practices, and that's what you're talking about. Not formal 
rigid standards, but mandatory practices.
    I thought the statement about people processing technology 
is a good matrix to use. We ought to be focused on the people, 
and that's what industry ought to be doing. Technology we can 
do as well. We can cooperate through these public/private 
partnerships, but I don't believe it should be a rigid 
government standard.
    Mr. Deal. Several of you, though, have mentioned the 
Freedom of Information Act as being a problem area. Is any of 
the legislation that is pending now address that particular----
    Mr. McCurdy. Yes, Davis-Moran and Senator Bennett's bill 
provide an exemption as in the Y2K exemption for information 
sharing.
    Mr. Deal. And that should solve most of those problems?
    Mr. McCurdy. I think there's unanimous support here for 
that position.
    Mr. Deal. Okay. All right. Fine.
    I believe we're getting probably close a vote on the floor, 
from what I understand.
    I'll yield back, Mr. Chairman.
    Mr. Stearns. Well, no. We haven't got the 10 minute vote 
yet.
    Mr. Deal. Okay. Well, let me ask Mr. Klaus, and let me tell 
you we are proud of Mr. Klaus, a Georgia Tech graduate----
    Mr. Klaus. The Georgia mafia, you got to watch----
    Mr. Deal. As you can tell by his appearance, he is one of 
the younger more successful entrepreneurs and one of the really 
leading experts in the area of security, and we welcome you 
here.
    You had a response I think to the earlier initial question 
that the chairman had asked that you didn't have a chance to 
respond. Can you remember what the issue was that you wanted to 
respond to, and I was going to give you the chance to do that?
    Mr. Klaus. It was adding onto a comment, and I did not 
write it down in terms of exactly what it was going to be.
    Mr. Deal. All right.
    Mr. Klaus. I appreciate that.
    Mr. Deal. I think all of us are concerned about what can we 
do. We don't want to do anything that's going to make it worse, 
we want to try to make it better. And I gather from your 
comments that most of you are supportive of these remedial 
pieces of legislation that are pending.
    Obviously things like sentencing standards and sentencing 
guidelines are not within our jurisdiction, nor the 
jurisdiction of the Committee on Civil Forfeitures.
    You know, I suppose we would have to forfeit a lot of 
nerd's computers out there if this is the remedy that's there.
    But if we have moved from just the prankster, the 
intellectual graffiti artist to the more sophisticated people, 
you've already elaborated on what some of those motives are, 
whether it be blackmail--which that's an interesting one, I 
hadn't thought about that one--to actually attempting to 
actually seize some form of money and the processes that are 
interchange of commerce, how do we get a handle on that? 
Because obviously this is the Commerce Committee and we have 
interstate commerce type jurisdiction whether we can pass it 
maybe to the Judiciary Committee for their responsibilities or 
not. But are there other areas of legislative corrections that 
you envision need to be made that are not embodied in any of 
the pending bills?
    Mr. Klaus. I would suggest the other oversight 
responsibility of this committee, which has an incredible 
breadth of jurisdiction and continue to have the hearings. 
Don't leave it up to government on the other side to do this.
    Government can provide a model, but I would urge you to 
look at other industries, cross industries. There's some 
interesting things with regard to insurance.
    There are cyber insurance policies today, now they're not 
based on a lot of actuarial data, because there is very little 
data. They're kind of seat-of-the-pants, and insurers will tell 
you that. But there's some interesting contradictions.
    For instance, physical coverage for terrorism is now 
available, but cyber terrorism is not covered under insurance. 
And the question is are you going to get boards of directors 
and senior leadership of companies to pay attention if, in 
fact, it's not. But if you mandate it, then you create a whole 
potential area of cost.
    So there's some tough balances here, and those are very 
interesting questions that I would submit probably fall within 
your jurisdiction.
    Mr. Deal. One quick follow up. A lot of you have said the 
government ought to be the one to set the example by the 
agencies of the government. And you've also talked about the 
industry trying to come up with industry type standards.
    One of the worst things I think the government does is to 
do something but do it differently from one agency to the 
other. Has that begun to happen, and is there any effort now to 
say if the government is going to initiate security 
protections, that it should be a uniform type security 
protection that every agency of the government follows the same 
kinds of standards? Is that happening or is it not happening?
    Ms. Davidson. Yes, Mr. Deal, there are some differences. 
For example, even among the constituency that requires security 
evaluations, for example, against the common criteria I have 
seen agency specific what they call protection profiles. So 
even though there's a common framework for what does it mean 
when you say you're secure, I have seen a number of agencies 
who say we want our own special Good Housekeeping seal of 
approval, even though it may be the exact same product.
    Mr. Deal. And that's for vendors attempting to sell 
products.
    Ms. Davidson. Exactly.
    Mr. Deal. Okay.
    Ms. Davidson. And that's very difficult because I would say 
for a large complex data server, the cost of one of these 
evaluations is about a half a million dollars plus, including 
personnel costs, make it a round million dollars all in. And 
for companies to do that on an unfunded basis is very 
difficult, particularly in these economic times.
    What I'd really like to see is to say if you do it once, 
it's good across all the agencies or the entities who have an 
interest in this type of product, and you could take the most 
discriminatory approach and say we'll make the most rigid 
standard rather than the least rigid standard the one that 
companies have to comply with.
    Mr. Deal. So that could be an oversight issue.
    Mr. Stearns. I want to thank the gentleman.
    And let me just conclude by thanking all the witnesses for 
coming this morning and this afternoon. I think it's a very 
good hearing.
    I think the conclusion is that we're hoping industry will 
step up to the plate and have Ms. Davidson has talked about, a 
level of awareness of what information technology is. If not, 
obviously Congress as a resort could mandate security 
standards, which we don't want to do.
    And with that, I'll adjourn the committee.
    [Whereupon, at 2:50 p.m. the subcommittee was adjourned.]

</pre></body></html>
